No. _______
IN THE

Supreme Court of the United States
_________
HOSPIRA, INC.,
Petitioner,
v.
ELI LILLY AND COMPANY,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Federal Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
SARA TONNIES HORTON
YUSUF ESAT
JENNER & BLOCK LLP
353 N. Clark St.
Chicago, IL 60654

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
QUESTION PRESENTED
This Court has long recognized the doctrine of
prosecution history estoppel, which provides that when
a patentee narrows a claim during patent prosecution
for a “substantial reason related to patentability,” “the
court should presume that the patentee surrendered all
subject matter between the broader and the narrower
language,” and therefore may not reclaim that subject
matter under the doctrine of equivalents. Festo Corp.
v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S.
722, 740 (2002). In Festo, this Court held that “[t]here
are some cases, however, where the amendment cannot
reasonably be viewed as surrendering a particular
equivalent.” Id. at 740. One such scenario arises when
“the rationale underlying the amendment may bear no
more than a tangential relation to the equivalent in
question.” Id. The Court then went on to hold that
“[t]he patentee must show that at the time of the
amendment one skilled in the art could not reasonably
be expected to have drafted a claim that would have
literally encompassed the alleged equivalent.” Id. at
741.
The question presented is:
Whether a patentee may recapture subject matter
via the doctrine of equivalents under the “tangential
relation” exception by arguing that it surrendered
more than it needed to during prosecution to avoid a
prior art rejection, even if a claim could reasonably
have been drafted that would literally have
encompassed the alleged equivalent.

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner Hospira, Inc. is an indirect, wholly-owned
subsidiary of Pfizer Inc. As to Pfizer Inc., it has no
parent corporation and no publicly held corporation
holds 10% or more of its stock.

iii
STATEMENT OF RELATED CASES
Eli Lilly & Co. v. Hospira, Inc., Nos. 2018-2126 and
2018-2127 (Fed. Cir.) (Federal Circuit case below).
Eli Lilly & Co. v. Hospira, Inc., No. 1:16-cv-03460TWP-MPB (S.D. Ind.) (District Court case below).
The following case was a companion case in the
Federal Circuit: Eli Lilly & Co. v. Dr. Reddy’s Labs.,
Ltd., No. 2018-2128 (Fed. Cir.). The Federal Circuit
decided that appeal in the same opinion as the appeal at
issue in this petition, although separate judgments
were issued in each appeal. That case arose from the
following district court case: Eli Lilly & Co. v. Dr.
Reddy’s Labs., Ltd., No. 1:16-cv-00308-TWP-MPB (S.D.
Ind.).

iv
TABLE OF CONTENTS
QUESTION PRESENTED .............................................. i
CORPORATE DISCLOSURE STATEMENT ............ ii
STATEMENT OF RELATED CASES ....................... iii
TABLE OF AUTHORITIES ......................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ......................................................... 1
JURISDICTION ................................................................ 1
INTRODUCTION ............................................................. 1
STATEMENT .................................................................... 8
REASONS FOR GRANTING THE WRIT ................ 14
I.

The Federal Circuit’s Decision Is Wrong. ........ 15

II.

This Court Should Grant Certiorari And
Reverse The Federal Circuit’s Decision. .......... 21
A.

This Case is Sufficiently Important
to Warrant Supreme Court
Review. ...................................................... 22

B.

The Federal Circuit’s Internal
Inconsistency Will Exacerbate the
Confusion Over the Scope of
Patent Claims. ........................................... 27

v
C.

This Case Is The Ideal Vehicle............... 30

CONCLUSION ................................................................ 31
Appendix A
Eli Lilly and Company v. Hospira, Inc., 933
F.3d 1320 (Fed. Cir. 2019) .......................................... 1a
Appendix B
Eli Lilly and Company v. Hospira, Inc., Case
No. 1:16-cv-03460-TWP-MPB, 2018 WL
3008570 (S.D. Ind. June 15, 2018) ............................ 32a
Appendix C
Order Denying Rehearing En Banc, Eli Lilly
and Company v. Hospira, Inc., No. 2018-2126
(Fed. Cir. Nov. 8, 2019) ............................................. 48a

vi
TABLE OF AUTHORITIES
CASES
Ajinomoto Co. v. ITC, 932 F.3d 1342 (Fed.
Cir. 2019) .................................................................. 23
Amgen Inc. v. Amneal Pharmaceuticals
LLC, 328 F. Supp. 3d 373 (D. Del. 2018),
aff’d in part, rev’d in part, 945 F.3d 1368
(Fed. Cir. 2020)........................................................ 23
Amgen Inc. v. Amneal Pharmaceuticals
LLC, 945 F.3d 1368 (Fed. Cir. 2020) .................... 23
Bio-Rad Laboratories, Inc. v. 10X Genomics,
Inc., 322 F. Supp. 3d 537 (D. Del. 2018),
appeal docketed, No. 19-2255 (Fed. Cir.
Aug. 19, 2019) .......................................................... 23
Chimie v. PPG Industries Inc., 402 F.3d 1371
(Fed. Cir. 2005)........................................................ 30
Eli Lilly & Co. v. Teva Parenteral Medicines,
Inc., 845 F.3d 1357 (Fed. Cir. 2017) ..................... 11
Felix v. American Honda Motor Co., 562 F.3d
1167 (Fed. Cir. 2009)............................................... 29
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., Ltd., 535 U.S. 722 (2002) .... passim
Honeywell International, Inc. v. Hamilton
Sundstrand Corp., 523 F.3d 1304 (Fed.
Cir. 2008) .................................................................... 5

vii
iCeutica Pty Ltd. v. Lupin Limited, No. MJG17-0394, 2018 WL 656447 (D. Md. Feb. 1,
2018) .......................................................................... 23
Integrated Technology Corp. v. Rudolph
Technologies, Inc., 734 F.3d 1352 (Fed.
Cir. 2013) .................................................................. 29
Kenu, Inc. v. Belkin International, Inc., No.
15-cv-01429-JD, 2018 WL 2445318 (N.D.
Cal. May 31, 2018) ................................................... 23
Norian Corp. v. Stryker Corp., 432 F.3d 1356
(Fed. Cir. 2005).................................................. 28, 29
Pharma Tech Solutions, Inc. v. LifeScan,
Inc., 942 F.3d 1372 (Fed. Cir. 2019) ..................... 23
Qualcomm Inc. v. Apple Inc., No. 17cv1375,
2019 WL 448278 (S.D. Cal. Feb. 5, 2019) ............. 23
Warner-Jenkinson Co. v. Hilton Davis
Chemical Co., 520 U.S. 17 (1997) ........................ 2, 3
Water
Technology,
LLC
v.
Kokido
Development Ltd., No. 4:17-cv-01906-AGF,
2020 WL 418549 (E.D. Mo. Jan. 27, 2020)............ 23

1
PETITION FOR WRIT OF CERTIORARI
Hospira, Inc. petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Federal Circuit.
OPINIONS BELOW
The decision of the Federal Circuit (Pet. App. 1a31a) is reported at 933 F.3d 1320. The order of the
Federal Circuit denying rehearing en banc (Pet. App.
48a-49a) is unreported. The decision of the Southern
District of Indiana (Pet. App. 32a-47a) is reported at
2018 WL 3008570.
JURISDICTION
The judgment of the Federal Circuit was entered on
August 9, 2019. The order of the Federal Circuit
denying rehearing en banc was entered on November 8,
2019. On January 28, 2020, the Chief Justice granted
Hospira’s application (No. 19A841) extending the time
to file this petition for certiorari until February 24,
2020. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254.
INTRODUCTION
This case concerns the patent law doctrine of
prosecution history estoppel.
This Court last
addressed that doctrine in Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., Ltd., 535 U.S. 722
(2002). Relying on isolated words in Festo, the Federal
Circuit has constructed a doctrinal framework
governing prosecution history estoppel that is
untethered from Festo’s reasoning and will lead to
abuse of the patent prosecution process. This Court

2
should grant certiorari and restore order to that
doctrine.
Prosecution history estoppel is a limitation on the
patent law doctrine known as the doctrine of
equivalents. The doctrine of equivalents provides that
“a product or process that does not literally infringe
upon the express terms of a patent claim may
nonetheless be found to infringe if there is ‘equivalence’
between the elements of the accused product or process
and the claimed elements of the patented invention.”
Warner-Jenkinson Co. v. Hilton Davis Chemical Co.,
520 U.S. 17, 21 (1997). The doctrine of equivalents
exists because “the nature of language makes it
impossible to capture the essence of a thing in a patent
application.” Festo, 535 U.S. at 731. Thus, “[t]he
language in the patent claims may not capture every
nuance of the invention or describe with complete
precision the range of its novelty.” Id. “If patents
were always interpreted by their literal terms, their
value would be greatly diminished. Unimportant and
insubstantial substitutes for certain elements could
defeat the patent, and its value to inventors could be
destroyed by simple acts of copying.” Id.
The doctrine of prosecution history estoppel applies
when a patentee submits a patent application with
broad claim language, and then narrows that claim
language during patent prosecution, thus surrendering
a portion of the subject matter covered by the original
version of the claim. That doctrine provides that if a
product or process is literally covered by the original,
broader version of the claim, but is not literally covered
by the final, narrower version of the claim, then the

3
patentee is generally estopped from asserting that the
product or process infringes the claim under the
doctrine of equivalents.
This Court explained the basis for prosecution
history estoppel in Festo:
Prosecution history estoppel ensures that the
doctrine of equivalents remains tied to its
underlying purpose. Where the original
application once embraced the purported
equivalent but the patentee narrowed his claims
to obtain the patent or to protect its validity, the
patentee cannot assert that he lacked the words
to describe the subject matter in question. The
doctrine of equivalents is premised on language’s
inability to capture the essence of innovation,
but a prior application describing the precise
element at issue undercuts that premise. In that
instance the prosecution history has established
that the inventor turned his attention to the
subject matter in question, knew the words for
both the broader and narrower claim, and
affirmatively chose the latter.
Id. at 734-35.
The general rule of prosecution history estoppel is
subject to certain exceptions. One exception, not at
issue in this case, applies when “the patent holder
demonstrates that an amendment required during
prosecution had a purpose unrelated to patentability.”
Warner-Jenkinson, 520 U.S. at 40-41.
In Festo, this Court addressed the scenario where,
as here, a patentee does amend a patent claim during

4
prosecution for a purpose related to patentability. This
Court declined to hold that there was a “complete bar”
on asserting the doctrine of equivalents in that
scenario. 535 U.S. at 740.
Instead, the Court held that a “court should
presume that the patentee surrendered all subject
matter between the broader and the narrower
language,” and “the patentee should bear the burden of
showing that the amendment does not surrender the
particular equivalent in question.” Id. In imposing this
burden on the patentee, the Court emphasized that
“[t]he patentee, as the author of the claim language,
may be expected to draft claims encompassing readily
known equivalents.” Id. But the Court also concluded
that “[t]here are some cases, however, where the
amendment cannot reasonably be viewed as
surrendering a particular equivalent.” Id. The Court
explained:
The equivalent may have been unforeseeable at
the time of the application; the rationale
underlying the amendment may bear no more
than a tangential relation to the equivalent in
question; or there may be some other reason
suggesting that the patentee could not
reasonably be expected to have described the
insubstantial substitute in question. In those
cases the patentee can overcome the
presumption that prosecution history estoppel
bars a finding of equivalence.
Id. at 740-41. In the next paragraph, the Court
summarized its holding as follows: “The patentee must
show that at the time of the amendment one skilled in

5
the art could not reasonably be expected to have
drafted a claim that would have literally encompassed
the alleged equivalent.” Id. at 741.
In the 18 years since Festo was decided, the Federal
Circuit has hardened the above-quoted paragraph into
a three-part test, in which a patentee may refute the
presumption of prosecution history estoppel via either
the “unforeseeable” exception; the “tangential relation”
exception; or the “some other reason” exception. See,
e.g., Honeywell Int’l, Inc. v. Hamilton Sundstrand
Corp., 523 F.3d 1304, 1310-11 (Fed. Cir. 2008)
(quotation marks omitted).
This case concerns the “tangential relation”
exception, or, as it has become known, the doctrine of
“tangentiality.” Pet. App. 20a, 25a. The Federal
Circuit’s tangentiality jurisprudence has gone seriously
awry. Specifically, the Federal Circuit now holds that
even when the patentee indisputably could “reasonably
be expected to have drafted a claim that would have
literally encompassed the alleged equivalent,” Festo,
535 U.S. at 741, the doctrine of prosecution history
estoppel applies so long as the patentee can show that
its purpose for an amendment is sufficiently
disconnected from its theory of equivalence. That
holding is irreconcilable with Festo’s rationale. And it
unfairly skews the patent playing field in favor of
patentees, by artificially expanding the scope of patent
monopolies and handcuffing the ability of competitors
to design their products in a manner that avoids
infringement.
The straightforward facts of this case illustrate the
Federal Circuit’s fundamental misunderstanding of

6
Festo. Respondent Eli Lilly & Co. (“Lilly”) submitted a
patent application to the Patent Office that included
claims with the broad claim term “antifolate.” Those
claims were rejected as anticipated or obvious in light
of prior art. Lilly then narrowed the claim term
“antifolate” to one particular type of antifolate—
“pemetrexed disodium.” The claims were subsequently
allowed by the Patent Office.
Lilly sued Petitioner Hospira, Inc. (“Hospira”) for
patent infringement. Hospira’s product uses a different
pemetrexed compound—pemetrexed ditromethamine.
Because pemetrexed ditromethamine is a type of
antifolate, it would have literally fallen within the
original version of the claim. But because pemetrexed
ditromethamine is different from pemetrexed disodium,
it does not literally fall within the final version of the
claim.
Therefore, unless an exception applies,
prosecution history estoppel bars Lilly from asserting
infringement under the doctrine of equivalents.
This case should have been easy: no exception
applies, and prosecution history estoppel bars Lilly
from asserting its claim. There would have been a
straightforward way for Lilly to narrow its claim in a
manner that would have encompassed the alleged
equivalent. It could have simply said “pemetrexed and
its salts,” or “all pemetrexed compounds,” or similar
language, rather than limiting its claim to one
particular pemetrexed compound.
This was
emphatically not a case in which the patentee “lacked
the words to describe the subject matter in question.”
Festo, 535 U.S. at 734. Thus, prosecution history
estoppel should have applied: Lilly could not “show that

7
at the time of the amendment one skilled in the art
could not reasonably be expected to have drafted a
claim that would have literally encompassed the alleged
equivalent,” as Festo requires. Id. at 741.
But the Federal Circuit took a different view. In its
view, Lilly’s subjective goal in amending its claim was
to distinguish pemetrexed compounds from other
antifolates, not to distinguish one pemetrexed
compound from another. The Federal Circuit reasoned
that Lilly could have achieved that subjective goal in a
different way—merely by narrowing the claim to
“pemetrexed compounds,” rather than to one particular
pemetrexed compound. Therefore, the Federal Circuit
elected to treat the claim as though Lilly actually did
narrow its claim to all pemetrexed compounds, rather
than pemetrexed disodium. Specifically, it held that
pemetrexed ditromethamine could infringe a claim
limited, by its terms, to pemetrexed disodium—thus
nullifying Lilly’s decision during prosecution to narrow
its claim to pemetrexed disodium.
The Federal Circuit’s decision warrants this Court’s
review. If the Federal Circuit’s decision stands, the
public notice function of patent claiming and patent
prosecution will be nullified. Where, as here, a patent
applicant elects to narrow a claim in such a way that
unambiguously excludes a class of compounds, both the
patent office and the public should be able to rely on
that election and infer that the excluded class of
compounds is non-infringing. Yet under the Federal
Circuit’s decision, patent applicants can play bait-andswitch games with the patent office—making the
strategic decision to narrow a claim during prosecution,

8
then expanding the claim via the doctrine of
equivalents by making post-hoc arguments about the
reason for that narrowing. The Court should reverse
the Federal Circuit and prevent the abuse of the patent
prosecution process that the Federal Circuit’s decision
portends.
STATEMENT
Lilly is a pharmaceutical company that markets a
lung cancer drug under the trade name ALIMTA. Pet.
App. 4a. ALIMTA is composed of a chemical compound
known as pemetrexed disodium. Id. Pemetrexed
disodium is a type of salt, composed of one pemetrexed
molecule bonded with two sodium atoms. Pet. App. 4a,
15a.
Pemetrexed is a type of antifolate. Pet. App. 4a. It
is structurally similar to folic acid and competitively
binds to certain enzymes that use folic acid as cofactors
in nucleotide synthesis. Id. Unlike folic acid, it inhibits
rather than enables synthesis of those nucleotides. Id.
Thus, it is an “antifolate”—it counteracts the effect of
folic acid on nucleotide synthesis. Id. In doing so, it
slows down the growth and division of cancer cells.
Pet. App. 5a. Pemetrexed has been widely known for
decades and is not under patent protection. Id.
This case concerns U.S. Patent No. 7,772,209, owned
by Lilly (“the ’209 patent”). The ’209 patent is directed
not to pemetrexed itself, but instead to a particular
type of treatment technique that uses pemetrexed
disodium in conjunction with other chemical compounds
in order to combat cancer. Claim 12 is representative:

9
12. An improved method for administering
pemetrexed disodium to a patient in need of
chemotherapeutic treatment, wherein the
improvement comprises:
a) administration of between about 350 μg and
about 1000 μg of folic acid prior to the first
administration of pemetrexed disodium;
b) administration of about 500 μg to about 1500
μg of vitamin B12, prior to the first
administration of pemetrexed disodium; and
c) administration of pemetrexed disodium.
Pet. App. 7a. The specification explains that this
treatment method lessens antifolate toxicity without
sacrificing efficacy. Pet. App. 6a.
Lilly originally, but unsuccessfully, sought patent
protection for a broader patent claim. The ’209 patent
descends from U.S. Patent Application 10/297,821 (“the
’821 application”). Pet. App. 8a. That application
sought patent protection for a claim covering the use of
any antifolate, rather than just pemetrexed disodium.
In particular, the ’821 application originally included
the following independent claims:
2. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an effective
amount of said antifolate in combination with
a methylmalonic acid lowering agent.

10
5. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an effective
amount of said antifolate in combination with
a methylmalonic acid lowering agent and
FBP binding agent.
Pet. App. 8a. These claims are broader than the final
version of the claim. They encompass any antifolate
(rather than just pemetrexed disodium) and any
methylmalonic acid lowering agent (rather than just
Vitamin B12 in particular quantities). As well, claim 5
covers any FBP binding agent (rather than just folic
acid).
As relevant here, original claim 2 was rejected in
view of a 1978 reference known as Arsenyan, while
original claim 5 was rejected in view of the combination
of Arsenyan and other references. Pet. App. 8a-9a.
Arsenyan disclosed experiments treating mice with
tumors using the combination of methotrexate—an
antifolate—and a methylmalonic acid lowering agent
known as methylcobalamin. Pet. App. 8a.
In response, Lilly amended its claims. It replaced
the broader term “antifolates” with the narrower term
“pemetrexed disodium.” Pet. App. 9a. And, it argued
to the Examiner that “[t]here is no disclosure in
Arsenyan et al. of the invention as presently claimed”
because Arsenyan “does not disclose pemetrexed
disodium and does not disclose the use of vitamin B12
or a pharmaceutical derivative to reduce the toxicity
associated with the administration of pemetrexed

11
disodium.” Hospira Opening C.A. Br. at 10 (quoting
Appx430); Pet. App. 9a. The Examiner withdrew his
objections based on Arsenyan and the claims ultimately
progressed to allowance. Pet. App. 9a.
After the patent was allowed by the Patent Office,
Lilly began suing its competitors for infringement,
leading to extensive litigation. In an initial round of
litigation, Lilly sued competitors for infringement
based on its competitors’ efforts to sell the drug
actually recited in the claim: pemetrexed disodium. See
Eli Lilly & Co. v. Teva Parenteral Meds., Inc., 845 F.3d
1357 (Fed. Cir. 2017).
This case concerns Lilly’s effort to enforce its patent
against competitors who do not seek to sell pemetrexed
disodium. In 2016, Hospira submitted to the FDA a
New Drug Application (“NDA”) for a pemetrexed
ditromethamine product. That molecule consists of one
pemetrexed molecule bonded with two tromethamine
molecules. Pet. App. 10a.
Lilly sued Hospira for infringement in the Southern
District of Indiana. Pet. App. 10a. As relevant here,
Lilly argued that an NDA based on pemetrexed
ditromethamine infringed, via the doctrine of
equivalents, a claim reciting pemetrexed disodium.1
1 Lilly also argued, and the District Court agreed, that
Hospira
literally
infringed
because
pemetrexed
ditromethamine was dissolved in a saline solution (i.e., a
solution containing sodium). Pet. App. 38a-39a. The Federal
Circuit, however, reversed that portion of the District
Court’s holding. Pet. App. 16a (“There is no dispute that

12
Hospira countered that prosecution history estoppel
barred Lilly’s claim under the doctrine of equivalents.
Hospira reasoned that Lilly’s originally-submitted
patent claim sought protection for a claim
encompassing all “antifolates,” but Lilly amended that
claim by narrowing “antifolates” to “pemetrexed
disodium.” Thus, because pemetrexed ditromethamine
literally fell within the original version of the claim
(because it is an antifolate), but did not literally fall
within the final version of the claim (because it is not
pemetrexed disodium), Lilly was estopped from
asserting that Hospira infringed under the doctrine of
equivalents. The District Court rejected Hospira’s
argument, holding that Lilly had rebutted the
presumption of prosecution history estoppel because
“the rationale underlying the amendment may bear no
more than a tangential relation to the equivalent in
question.” Pet. App. 40a-43a; see Festo, 535 U.S. at 740.
The Federal Circuit consolidated Hospira’s appeal
with a different, similar appeal involving a different
party (Dr. Reddy’s Laboratories), and affirmed in
relevant part. The Federal Circuit acknowledged
Lilly’s concession that “the amendment in question was
both narrowing and made for a substantial reason
Hospira has only sought approval to market pemetrexed
ditromethamine, Lilly Br. I 4, and that neither its proposed
product nor methods of administering it will constitute
administering the pemetrexed disodium salt. Accordingly,
Hospira will not practice the step of ‘administration of
pemetrexed disodium,’ and the district court’s finding of
literal infringement must be reversed.”).

13
relating to patentability.” Pet. App. 19a. Thus, Lilly
conceded that a presumption of prosecution history
estoppel applied, and that Lilly bore the burden of
rebutting that presumption. Id.; see Lilly C.A. Br. at
48. The sole issue in the case was whether Lilly had
successfully rebutted that presumption by showing
that the “rationale of its amendment ‘[b]ore no more
than a tangential relation to the equivalent in
question.’” Pet. App. 19a (quoting Festo, 535 U.S. at
740).
The court held that Lilly had met that burden. In
its view, the “reason for Lilly’s amendment … was to
narrow original claim 2 to avoid Arsenyan, which only
discloses treatments using methotrexate, a different
antifolate.” Pet. App. 20a-21a. “To overcome a clear
anticipation, Lilly opted to narrow its original claim 2
and its dependents to more accurately define what it
actually
invented,
an
improved
method
of
administering pemetrexed.” Pet. App. 21a.
Of course, the amended claim did not recite a
method of administering pemetrexed; it recited a
method of administering pemetrexed disodium. But
the Federal Circuit brushed this point off: “Appellants’
suggestion that Lilly must prove that it could not have
drafted a claim that literally encompassed pemetrexed
ditromethamine is unsupported by our precedent on
prosecution history estoppel, not to mention excessive.
We do not demand perfection from patent prosecutors,
and neither does the Supreme Court.” Pet. App. 23a.
The court quoted the statement in Festo that an
amended claim need not “become[] so perfect in its
description that no one could devise an equivalent.” Id.

14
(quoting Festo, 535 U.S. at 738). The court deemed the
“less sweeping and more sensible reason for Lilly’s
amendment” to be “to surrender antifolates other than
pemetrexed.” Pet. App. 26a.
REASONS FOR GRANTING THE WRIT
In Festo, this Court held that when a patentee
narrows a claim during prosecution, “the court should
presume that the patentee surrendered all subject
matter between the broader and the narrower
language.” 535 U.S. at 740. But “[t]here are some
cases, however, where the amendment cannot
reasonably be viewed as surrendering a particular
equivalent.” Id. One such case occurs when “the
rationale underlying the amendment may bear no more
than a tangential relation to the equivalent in
question.” Id. In the next paragraph, the Court
summarized its holding as follows: “The patentee must
show that at the time of the amendment one skilled in
the art could not reasonably be expected to have
drafted a claim that would have literally encompassed
the alleged equivalent.” Id. at 741.
The question in this case is straightforward: when
the record makes clear that the patentee could
reasonably have been expected to have drafted a claim
that would have literally encompassed the alleged
equivalent, can the patentee nonetheless take refuge in
the “tangential relation” exception? The answer should
be no. In reaching a contrary conclusion, the Federal
Circuit’s decision contravened the plain language of this
Court’s decision, and its decision will seriously
jeopardize the integrity of the patent prosecution

15
process.
reverse.
I.

The Court should grant certiorari and
The Federal Circuit’s Decision Is Wrong.

Begin with what is plain from the record: this is not
a case where the patentee “could not reasonably be
expected to have drafted a claim that would have
literally encompassed the alleged equivalent.” Festo,
535 U.S. at 741. Lilly cannot conceivably claim that—in
Festo’s words—it “lacked the words to describe the
subject matter in question.” Id. at 734-35. Lilly could
have simply said “pemetrexed and its salts,” or
“pemetrexed compounds,” or similar language. If it
had done so, pemetrexed ditromethamine would have
literally infringed. Indeed, Lilly’s own prior patent
defined “pemetrexed” as “the stable salts, acids and
free base forms thereof.”2 If Lilly had simply reused its
own language from its own prior patent, infringement
would be clear.
Nor can Lilly conceivably claim that it “could not
reasonably be expected to have drafted” a broader
claim because it could not have foreseen that a
competitor might use a different pemetrexed
compound.
Festo holds that prosecution history
estoppel does not apply when the equivalents were
“unforeseeable at the time of the amendment and
beyond a fair interpretation of what was surrendered.”
535 U.S. at 738. But Lilly expressly declined to rely on
2 Hospira Opening C.A. Br. at 3 (quoting Appx1397); see
U.S. Patent No. 6,686,365, at 3:10-20.

16
Festo’s “unforeseeability” exception below, Lilly C.A.
Br. at 52 n.11, and the Federal Circuit never suggested
it was satisfied.
From the Federal Circuit’s perspective, none of this
mattered.
The dispositive point, in the Federal
Circuit’s view, was that the purpose of Lilly’s
amendment was “to more accurately define what it
actually
invented,
an
improved
method
of
administering pemetrexed.” Pet. App. 21a. Thus, it
deemed the “less sweeping and more sensible reason
for Lilly’s amendment” to be “to surrender antifolates
other than pemetrexed.” Pet. App. 26a. In other
words, because Lilly could have achieved its purpose of
overcoming the prior art by limiting its claim to
“pemetrexed compounds” or similar language, it was
irrelevant that Lilly instead decided to limit its claim all
the way to “pemetrexed disodium.”
The Federal Circuit’s interpretation of Festo was
incorrect—and its error was not simply a
misapplication of Festo to the facts of this case. It
reflects a basic misunderstanding of the doctrine of
prosecution history estoppel.
Festo holds that in some cases, “the rationale
underlying the amendment may bear no more than a
tangential relation to the equivalent in question.” 535
U.S. at 740.
Contrary to the Federal Circuit’s
conclusion, that sentence is not a freestanding
invitation for courts to apply an exception to
prosecution history estoppel whenever they perceive
that the patentee’s reason for an amendment did not
require the patentee to surrender the claimed
equivalent.

17
Instead, as this Court made clear in the very next
paragraph of Festo, the “tangential relation” exception
is simply one example of the scenario in which “one
skilled in the art could not reasonably be expected to
have drafted a claim that would have literally
encompassed the alleged equivalent.” Id. at 741. And
that scenario, in turn, reflects the core purpose of the
doctrine of equivalents: to ensure that the patentee
may receive the full benefit of his invention even when
“he lacked the words to describe the subject matter in
question.” Id. at 734. Thus, under Festo, the patentee’s
ultimate burden is to demonstrate that it could not
reasonably have amended the claim so as to encompass
the claimed equivalent.
Festo’s reference to the
“tangential relation” exception reflects the fact that, in
appropriate cases, that ultimate burden can be satisfied
by establishing the “tangential relation” between the
amendment and the equivalent. But it does not relax
that ultimate burden. And Lilly cannot overcome that
burden, because it so plainly could have amended its
claim so as to encompass the claimed equivalent.
The Federal Circuit’s decision boiled down to its
theory that Lilly did not have to limit its claim all the
way down to “pemetrexed disodium,” to overcome the
prior art—“pemetrexed compounds,” or the like, would
have been enough—and therefore, Lilly should be
relieved of the consequences of its choice during
prosecution. But prosecution history estoppel exists to
protect the public, not the patentee. And prosecution
history estoppel should apply because any rational
member of the public would interpret Lilly’s
amendment to be a conscious effort to limit its claim to

18
a particular compound, regardless of Lilly’s purpose in
making the amendment.
Consider the following example. A claim in a patent
application recited “fruit,” and then, in response to a
rejection, the claim was amended to “Red Delicious
apples.” Anyone would infer that the amendment
excludes other types of apples.
Otherwise, the
patentee would have just said “apples.”
Thus,
prosecution history estoppel should bar a patentee from
accusing Honeycrisp apples of infringement. Under the
Federal Circuit’s decision, however, a patentee could
later accuse Honeycrisp apples of infringement. It
could reason as follows: the prior art that gave rise to
the rejection referred only to bananas. As such, the
patentee did not need to narrow its claim to “Red
Delicious apples,” and could have narrowed its claim to
“apples.”
And so—notwithstanding its voluntary
choice to narrow its claim to “Red Delicious apples”—
the court can simply pretend that the patentee actually
narrowed its claim to “apples.” That has to be wrong—
and for the same reason, the Federal Circuit’s decision
is wrong too. By narrowing its claim from “antifolates”
to “pemetrexed disodium,” Lilly told the public that its
claim was limited to “pemetrexed disodium.” The
public should have the right to rely on that, regardless
of whether Lilly could have narrowed its claim to
“pemetrexed” if it had been so inclined.
In the decision below, the Federal Circuit asserted
that Festo supported its decision—but its discussion of
Festo demonstrates its misunderstanding of that case.
The Federal Circuit brushed off the fact that Lilly
gratuitously limited its claim to pemetrexed disodium

19
with the following statement: “We do not demand
perfection from patent prosecutors, and neither does
the Supreme Court.” Pet. App. 23a. As support for
this proposition, the Federal Circuit quoted the
following statement from Festo: “It does not follow,
[however,] that [the] amended claim becomes so perfect
in its description that no one could devise an
equivalent.” Id. (quoting Festo, 535 U.S. at 738).
But the Federal Circuit failed to quote the very
next sentence in Festo: “After amendment, as before,
language remains an imperfect fit for invention.” 535
U.S. at 738. And that sentence demonstrates the
Federal Circuit’s error. Under the Federal Circuit’s
decision, prosecution history estoppel does not apply
even when language is a perfect fit for invention. Here,
the Federal Circuit concluded that what Lilly “actually
invented” was “an improved method of administering
pemetrexed.” Pet. App. 21a. There is perfectly clear
language for that invention: “pemetrexed.” Lilly’s
decision to narrow the claim to pemetrexed disodium
reflected its own strategic decision—not any
imperfection in language that warrants relaxing
prosecution history estoppel.
The Federal Circuit’s legal standard is wrong for a
second reason. Under Festo, the “tangential relation”
exception requires assessing whether the “rationale
underlying the amendment” bears a “tangential
relation to the equivalent in question.” 535 U.S. at 740.
The Federal Circuit’s legal standard wrongly focuses
on the reason for amending the claim at all, rather
than the reason for the particular amendment that the

20
patentee made—which should have been the inquiry
dictated by Festo.
This case illustrates the flaw in the Federal
Circuit’s legal standard. Lilly amended “antifolates” to
“pemetrexed disodium.” The Federal Circuit thought
that the question was: Why did Lilly make the
amendment at all? And it answered that question: To
overcome prior art that disclosed a different antifolate.
But the Federal Circuit should have asked a
different question. It should have asked: why did Lilly
use the words “pemetrexed disodium” in its
amendment? Lilly’s explanation for its amendment did
not adequately respond to that question, because Lilly
did not explain why it added the word “disodium.” And
if the Federal Circuit had posed the right question, it
would have reached the right answer: prosecution
history estoppel applies.
Lilly’s decision to narrow the claim to “pemetrexed
disodium” did not come out of nowhere. Rather, that
decision reflects the fact that ALIMTA—the product
Lilly sells—is pemetrexed disodium. Pet. App. 4a; see
Lilly C.A. Br. at 61. So, in reality, Lilly had two
reasons for its amendment: to overcome the prior art
(which is why it amended its claim in the first place),
and to limit its claim to the product it was selling
(which is why it chose the particular words of the
amendment: pemetrexed disodium). But the latter
reason does not satisfy the “tangential relation”
exception. The equivalence between pemetrexed
disodium (the product Lilly sells), and pemetrexed
ditromethamine (a product Lilly does not sell), has a

21
direct—not tangential—relation to an amendment
limiting a claim to the product that Lilly sells.
Thus, the Federal Circuit’s rule relieves patentees
of the burden of showing that the rationale for the
particular amendment the patentee made is tangential
to the claimed equivalence. That rule is irreconcilable
with Festo’s reasoning. Under Festo, “estoppel ensures
that the doctrine of equivalents remains tied to its
underlying purpose”: to ensure patent protection even
when the patentee “lacked the words to describe the
subject matter in question,” in view of “language’s
inability to capture the essence of innovation.” Festo,
535 U.S. at 734-35. Given that purpose, Festo should be
construed to require courts to examine the basis for the
amendment that the patentee chose—not the reason for
making the amendment at all. By examining the reason
for the particular choice of amendment, the court can
ensure, as Festo requires, that prosecution history
estoppel applies when the patentee could reasonably
have amended the claim to include the claimed
equivalent. In ignoring the words that Lilly actually
used in its amendment, the Federal Circuit ignored
Festo’s core holding.
II.

This Court Should Grant Certiorari And
Reverse The Federal Circuit’s Decision.

This case warrants Supreme Court review. The
question presented recurs frequently and is important
to the sound administration of American patent law.
The Federal Circuit’s rule will create significant
uncertainty in the scope of patent claims—and the
Federal Circuit’s intra-circuit inconsistency on the
“tangentiality” exception to prosecution history

22
estoppel will only make the situation worse.
this case is an ideal vehicle.

Finally,

A. This Case is Sufficiently Important
to Warrant Supreme Court Review.
The Court should grant certiorari in view of the
importance of the question presented to American
patent law. Prosecution history estoppel generally, and
the “tangential relation” exception specifically, are
constantly litigated. The Federal Circuit’s holding that
courts should focus on the purpose of an amendment—
rather than whether the patentee could reasonably
have been expected to draft a claim encompassing the
claimed equivalent—will thus have a significant and
detrimental real-world effect. Worse, the Federal
Circuit’s decision will lead to gamesmanship in the
Patent Office, as patentees narrow their claims during
prosecution and then seek to expand their claims via
the doctrine of equivalents by making post-hoc
assertions about their rationales for the amendments.
The Court should grant certiorari to prevent distortion
of both patent litigation and patent prosecution, and
ensure that the doctrine of equivalents does not unduly
stifle the ability of competitors to design new products
outside the scope of a patent claim.
It is an unfortunate but routine tactic for patentees
to narrow claims during prosecution in the Patent
Office and then, after the patent is allowed, attempt to
re-broaden them in the courts via the doctrine of
equivalents. As such, prosecution history estoppel is a
constant source of litigation.
Indeed, the single
sentence fragment in Festo about the “tangential
relation” exception has taken on a life of its own, as the

23
Federal Circuit and district courts constantly hear
disputes about whether the so-called “tangentiality”
exception is satisfied. See, e.g., Amgen Inc. v. Amneal
Pharm. LLC, 945 F.3d 1368, 1382 (Fed. Cir. 2020);
Pharma Tech Sols., Inc. v. LifeScan, Inc., 942 F.3d
1372, 1381-84 (Fed. Cir. 2019); Ajinomoto Co. v. ITC,
932 F.3d 1342, 1355 (Fed. Cir. 2019); Water Tech., LLC
v. Kokido Dev. Ltd., No. 4:17-cv-01906-AGF, 2020 WL
418549, at *6-7 (E.D. Mo. Jan. 27, 2020); Qualcomm Inc.
v. Apple Inc., No. 17cv1375, 2019 WL 448278, at *3
(S.D. Cal. Feb. 5, 2019); Amgen Inc. v. Amneal Pharm.
LLC, 328 F. Supp. 3d 373, 395 (D. Del. 2018), aff’d in
part, rev’d in part, 945 F.3d 1368 (Fed. Cir. 2020); BioRad Labs., Inc. v. 10X Genomics, Inc., 322 F. Supp. 3d
537, 543 (D. Del. 2018), appeal docketed, No. 19-2255
(Fed. Cir. Aug. 19, 2019); Kenu, Inc. v. Belkin Int’l,
Inc., No. 15-cv-01429-JD, 2018 WL 2445318, at *3 (N.D.
Cal. May 31, 2018); iCeutica Pty Ltd. v. Lupin Limited,
No. MJG-17-0394, 2018 WL 656447, at *9 (D. Md. Feb.
1, 2018). And in those cases, disputes like the one at
issue in this case abound. As one example, three days
before the decision below was released, the Federal
Circuit issued a different decision holding that the
“tangential relation” exception applied in view of its
assessment of “the reason for the narrowing
amendment,” Ajinomoto, 932 F.3d at 1355,
notwithstanding the dissenting judge’s admonition that
the court had “ignore[d] how the patentee deliberately
elected to narrow the claims.” Id. at 1363 (Dyk, J.,
dissenting).
The Federal Circuit’s view of the “tangential
relation” exception will significantly complicate that

24
abundant litigation. Even where, as here, it is clear
that a patentee could reasonably have amended a claim
so as to encompass a claimed equivalent, courts will be
forced to plumb the prosecution history record to
speculate on the true purpose of an amendment.
Reverse-engineering a person’s purpose is a famously
difficult inquiry.
And as addressed above, it is
especially difficult in the context of prosecution history
estoppel, because patentees may have dual purposes:
one purpose for making the amendment at all, another
purpose for amending the claim more narrowly than
necessary to overcome the prior art. To apply the
“tangential relation” exception, courts will have to
determine which is the “right” purpose—an inquiry
that is not only indeterminate, but disconnected from
the doctrine’s purposes.
Even worse, the Federal Circuit’s decision will
radically distort patent prosecution. It will encourage
patentees to make strategic narrowing amendments,
and eviscerate the public notice function of claim
language and prosecution history.
Begin with the incentives for patent holders.
Patent prosecution inevitably presents strategic
considerations for patent applicants. Seek a patent that
is too broad, and the Patent Office might reject it. Seek
a patent that is too narrow, and the Patent Office might
allow it—but competitors might be able to design
around it. These strategic considerations become
especially pertinent when the Patent Office rejects a
claim in an application and demands that it be
narrowed. In that scenario, the patent applicant faces a
choice: either stand its ground and challenge the

25
rejection in court, or narrow the claim and make it less
useful once it is allowed.
But the Federal Circuit’s decision gives patent
applicants a third choice: artificially narrow the patent
so as to induce the Patent Office into allowing the
patent, and then re-expand the patent after the fact via
the doctrine of equivalents. Of course, the patent
applicant needs to create a record showing that the
reason for the amendment is “tangential” to the
equivalents it will seek to sweep into its patent. But
the patent applicant itself gets to write the prosecution
history record, by making arguments to the Patent
Office regarding the purpose of its amendments. And
by strategically manipulating the prosecution history
record, patentees can assert a patent that is broader
than the Patent Office could ever have conceived.
This case illustrates the problem perfectly. Lilly
originally asserted a claim directed to all antifolates.
The Patent Office rejected that claim as overly broad.
Lilly then narrowed its claim down to “pemetrexed
disodium”—the drug it was manufacturing. In so
doing, it made clear to the Patent Office that it was no
longer seeking patent protection beyond the use of its
own drug in the claimed treatment method. There was
therefore no need for the Patent Office to determine
whether Lilly was entitled to a broader patent that
encompassed other pemetrexed compounds that it did
not make.
Then, once it was awarded the patent, Lilly doubled
back and asserted its claim against the very
embodiments it disclaimed—embodiments that did not
use pemetrexed disodium. The Federal Circuit blessed

26
this tactic, allowing Lilly to rely on Lilly’s own
carefully-worded statements in the prosecution history
record to argue that the purported reason for the
amendment was tangential to the claimed equivalent—
and ignoring that the Patent Office had every right to
rely on the words of the amendment, not just Lilly’s
carefully-worded arguments in support of the
amendment.
The patent system should not work this way. In a
properly functioning patent system, the Patent Office
should be able to infer from a patentee’s narrowing of a
claim from a class of compounds to a single salt
compound that the claim does not, in fact, stretch
beyond that salt compound. But under the Federal
Circuit’s decision, it cannot. Rather, notwithstanding
Lilly’s representations to the Patent Office, the true
scope of the patent actually extends to all pemetrexed
compounds. And, according to the Federal Circuit, that
is because Lilly’s arguments in support of
distinguishing the prior art are consistent with a
hypothetical broader claim that would have used the
word “pemetrexed compounds.” The Federal Circuit’s
decision is an open invitation for future patentees to
engage in similar bait-and-switch tactics with the
patent office, allowing patentees to stretch their
patents to cover products that the Patent Office had
every reason to believe they would not cover.
The Federal Circuit’s decision will also burden the
public at large. Consider the matter from Hospira’s
perspective. The patent uses the phrase “pemetrexed
disodium.” Hospira did the right thing: It designed its
product so as not to use pemetrexed disodium. The

27
prosecution history record shows that Lilly first
wanted to assert its patent against all antifolates, but
then narrowed its claim to the use of the drug it was
manufacturing. This underscored Hospira’s reasonable
conclusion that if it used a drug that Lilly was not
manufacturing that did not fall within the claim
language, it would not infringe.
Yet the Federal Circuit found that Hospira is an
infringer, on the theory that Hospira should have
studied the interplay between Lilly’s amendment and
its arguments in support of the amendment and
reverse-engineered that the “less sweeping and more
sensible reason for Lilly’s amendment” was “to
surrender antifolates other than pemetrexed.” Pet.
App. 26a.
If this holding stands, no claim or
prosecution history record will ever be clear enough to
foreclose infringement litigation ever again. This
outcome will improperly expand the scope of a
patentee’s monopoly and will lead to a drag on
innovation, as would-be innovators will be deterred
from developing products that plainly fall outside the
literal scope of patent claims that were intentionally
narrowed during prosecution.
B. The Federal Circuit’s Internal
Inconsistency Will Exacerbate the
Confusion over the Scope of Patent
Claims.
There is an additional reason the Federal Circuit’s
decisions will spawn uncertainty on the scope of patent
claims:
the Federal Circuit itself is internally
inconsistent on the scope of the “tangentiality”
exception.

28
As explained above, the Federal Circuit concluded
that because Lilly could have overcome the prior art by
narrowing its claim to “pemetrexed compounds,” Lilly
would be treated as if it had narrowed its claim to
“pemetrexed compounds.” Lilly’s argument that it did
not need to amend its claim so as to exclude
pemetrexed ditromethamine was deemed sufficient to
show that the amendment was tangential to the
equivalence between pemetrexed ditromethamine and
pemetrexed disodium.
Yet the Federal Circuit has repeatedly rejected
that exact argument. In Norian Corp. v. Stryker Corp.,
432 F.3d 1356 (Fed. Cir. 2005), for instance, the
patentee amended a claim limitation from “sodium
phosphate solution” (which was broad enough to
include solutions containing multiple sodium phosphate
solutes) to “a solution consisting of water and a sodium
phosphate” (which only encompassed solutions
containing a single sodium phosphate solute). Id. at
1361. In an effort to avoid prosecution history estoppel,
the patentee made the identical argument that Lilly
made here: “Because the sole purpose of the
amendment was to avoid the effect of the [prior art], …
the prosecution history should not be interpreted as
disclaiming pure solutions that are made from more
than a single solute.” Id. The Federal Circuit
disagreed, in language that could have been written for
this case:
The problem with that argument is that there is
no principle of patent law that the scope of a
surrender of subject matter during prosecution
is limited to what is absolutely necessary to

29
avoid a prior art reference that was the basis for
an examiner’s rejection. To the contrary, it
frequently happens that patentees surrender
more through amendment than may have been
absolutely necessary to avoid particular prior
art. In such cases, we have held the patentees to
the scope of what they ultimately claim, and we
have not allowed them to assert that claims
should be interpreted as if they had surrendered
only what they had to.
Id. at 1361-62.
Norian itself did not expressly consider the scope of
the “tangential” exception, but a series of Federal
Circuit cases have applied the same reasoning to the
“tangential” exception. In Felix v. American Honda
Motor Co., 562 F.3d 1167 (Fed. Cir. 2009), for instance,
the patentee added two limitations—one related to a
channel, and one related to a gasket—to overcome prior
art. In an effort to avoid prosecution history estoppel,
the patentee made essentially the identical argument
that Lilly made here—that it did not need to add the
gasket limitation to overcome the prior art, and
therefore should be treated as though it actually did
not add that limitation. The Federal Circuit disagreed:
“If Felix had intended only to add a channel and not
add a gasket, he could easily have simply” done so. Id.
at 1184; see also, e.g., Integrated Tech. Corp. v. Rudolph
Techs., Inc., 734 F.3d 1352, 1358 (Fed. Cir. 2013)
(rejecting application of “tangential” exception and
stating: “It may be that [the patentee] did not need to
surrender [territory] … to overcome [prior art]. The
dispositive fact is that [the patentee] chose to do so.”);

30
Chimie v. PPG Indus. Inc., 402 F.3d 1371, 1383 (Fed.
Cir. 2005) (rejecting argument that “equivalents not
within the prior art must be tangential to the
amendment”).
In the decision below, the Federal Circuit
attempted to distinguish this line of cases with the
following conclusory statement: “[T]he reason for an
amendment, where the tangential exception is invoked,
cannot be determined without reference to the context
in which it was made, including the prior art that might
have given rise to the amendment in the first place.”
Pet. App. 22a. Yet that statement does not offer any
coherent guidance on when the Federal Circuit will
accept a “buyer’s remorse” defense and when it will
not. Here, Lilly easily could have narrowed its claim to
“pemetrexed compounds” rather than “pemetrexed
disodium”; whether that fact is deemed dispositive for
purposes of prosecution history estoppel appears to
turn on the random draw of Federal Circuit panel. This
Court’s guidance on the scope of Festo’s “tangentiality”
exception is therefore urgently needed.
C. This Case Is The Ideal Vehicle.
This case is the ideal vehicle to address the scope of
Festo’s “tangentiality” exception.
The facts are
remarkably stark.
Lilly narrowed its claim to
“pemetrexed disodium,” but later experienced buyer’s
remorse and argued that what it really meant to do
was narrow its claim to all pemetrexed salts. The
Federal Circuit allowed Lilly to evade the consequence
of its choice and expand its claim after the fact to
encompass all pemetrexed salts. If prosecution history
estoppel exists to protect patentees who “lacked the

31
words to describe the subject matter in question,”
Festo, 535 U.S. at 734-35, then Lilly cannot possibly
prevail. This case therefore presents the perfect
opportunity for this Court to decide whether a patentee
can assert prosecution history estoppel even when a
claim could reasonably have been written that would
have encompassed the claimed equivalent.
Moreover, awaiting additional Federal Circuit
jurisprudence on the “tangentiality” exception would
serve no purpose. The legal standard for prosecution
history estoppel does not come from a statute; it comes
from Festo, a decision from this Court. The dispute in
this case centers around the relationship between two
different statements in Festo: the statement
recognizing the “tangential relation” exception, and the
statement that prosecution history estoppel applies
only when a claim could not have been reasonably
written to encompass a claimed equivalent. Only this
Court can authoritatively clarify what statements in
this Court’s own prior opinion mean. Two decades
after Festo, it is time again for this Court to intervene.
The Federal Circuit’s jurisprudence on prosecution
history estoppel is not faithful to Festo and will
complicate litigation and harm innovation. The Court
should grant certiorari and reverse the Federal
Circuit’s errant holding.
CONCLUSION
The petition for a writ of certiorari should be
granted.

32
Respectfully submitted,
SARA TONNIES HORTON
YUSUF ESAT
JENNER & BLOCK LLP
353 N. Clark Ave
Chicago, IL 60654

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

APPENDIX

1a
Appendix A

United States Court of Appeals
For the Federal Circuit
_______________
ELI LILLY AND COMPANY,
Plaintiff-Appellee
v.
HOSPIRA, INC.,
Defendant-Appellant
_______________
2018-2126, 2018-2127
_______________
Appeals from the United States District Court
For the Southern District of Indiana in
No. 1:16-cv-03460-TWP-MPB,
Judge Tanya Walton Pratt
_______________
ELI LILLY AND COMPANY,
Plaintiff-Appellee
v.
DR. REDDY’S LABORATORIES, LTD.,
DR. REDDY’S LABORATORIES, INC.,
Defendants-Appellants

2a
_______________
2018-2128
_______________
Appeal from the United States District Court
For the Southern District of Indiana in
No. 1:16-cv-00308-TWP-MPB,
Judge Tanya Walton Pratt
_______________
Decided: August 9, 2019
_______________
ADAM LAWRENCE PERLMAN, Williams & Connolly,
LLP, Washington, DC, argued for plaintiff-appellee in
2018-2126 and 2018-2128. Also represented by GALINA
I. FOMENKOVA, DOV PHILIP GROSSMAN, DAVID M.
KRINSKY, ANDREW P. LEMENS, CHARLES MCCLOUD;
JAMES PATRICK LEEDS, Eli Lilly and Company,
Indianapolis, IN.
BRADFORD PETER LYERLA, Jenner & Block LLP,
Chicago, IL, argued for defendant-appellant in 20182126. Also represented by YUSUF ESAT, SARA TONNIES
HORTON; ADAM G. UNIKOWSKY, Washington, DC.
JOHN C. O’QUINN, Kirkland & Ellis LLP,
Washington, DC, argued for defendants-appellants in
2018-2128. Also represented by WILLIAM H. BURGESS,
CALVIN ALEXANDER SHANK; JEFFERY B. ARNOLD,
Holland & Knight LLP, Atlanta, GA; MERRI C. MOKEN,
CHARLES A. WEISS, ERIC H. YECIES, New York, NY.

3a
BRIAN TIMOTHY BURGESS, Goodwin Procter LLP,
Washington, DC, for amicus curiae Actavis LLC in 20182128. Also represented by EDWINA CLARKE, EMILY L.
RAPALINO, DARYL L. WIESEN, Boston, MA; LINNEA P.
CIPRIANO, New York, NY.
_______________
Before LOURIE, MOORE, and TARANTO, Circuit Judges.
LOURIE, Circuit Judge.
Hospira Inc. (“Hospira”), Dr. Reddy’s Laboratories
Ltd., and Dr. Reddy’s Laboratories Inc. (collectively,
“DRL”) appeal from two judgments of the United States
District Court for the Southern District of Indiana in
two infringement suits brought by Eli Lilly & Company
(“Lilly”) under the Hatch-Waxman Act, 21 U.S.C. § 355.
The district court held in each case that the defendant’s
submission of a New Drug Application pursuant to 21
U.S.C. § 355(b)(2) infringed U.S. Patent 7,772,209 (the
“’209 patent”) under 35 U.S.C. § 271(e)(2). See Eli Lilly
& Co. v. Hospira, Inc., No. 1:16-cv-03460-TWP-MPB,
2018 WL 3008570 (S.D. Ind. June 15, 2018) (“Hospira
Decision”); Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd., 323
F. Supp. 3d 1042 (S.D. Ind. 2018) (“DRL Decision”); see
also Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16cv-00308-TWP-MPB, 2017 WL 6387316 (S.D. Ind. Dec.
14, 2017) (“DRL Summary Judgment Decision”).
Accordingly, the district court entered orders under 35
U.S.C. § 271(e)(4)(A) prohibiting FDA approval of the
products at issue until the expiration of the ’209 patent.
Eli Lilly & Co. v. Hospira, Inc., No. 1:16-cv-03460-TWPMPB (S.D. Ind. June 27, 2018), ECF No. 94; Eli Lilly &
Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16-cv-00308-TWP-

4a
MPB, 2018 WL 3616715 (S.D. Ind. July 27, 2018). We
decide these appeals together in this combined opinion.1
We reverse the district court’s finding of literal
infringement in the Hospira Decision as clearly
erroneous in light of the court’s claim construction of
“administration of pemetrexed disodium.” Because the
district court did not err in its application of the doctrine
of equivalents in either decision, we affirm both
judgments of infringement. Thus, the Hospira Decision
is affirmed-in-part and reversed-in-part, and the DRL
Decision is affirmed.
BACKGROUND
Lilly markets the compound pemetrexed in the form
of a disodium salt as Alimta®, which is indicated, both
alone and in combination with other active agents, for
treating certain types of non-small cell lung cancer and
mesothelioma. Pemetrexed is an antifolate, a class of
molecules which, at the time of the invention in 2001, was
“one of the most thoroughly studied classes of
antineoplastic agents.” ’209 patent col. 1 ll. 19–20.
Antifolates are structurally similar to folic acid and work
by competitively binding to certain enzymes that use
folic acid metabolites as cofactors in several steps of de
novo nucleotide synthesis. Id. col. 1 ll. 40–41. Unlike
folic acid, antifolates do not enable these synthetic steps,
but instead inhibit them. Pemetrexed inhibits several of
these enzymes, including thymidylate synthase, which
methylates deoxyuridine in the final step of
1

We refer to the joint appendices in these appeals by reference to
each appellant. Lilly’s brief in the Hospira appeal is referred to as
“Lilly Br. I” and its brief in the DRL appeal as “Lilly Br. II.”

5a
deoxythymidine synthesis. Id. col. 1 ll. 59–61. By
inhibiting the creation of these nucleotides, antifolates
slow down DNA and RNA synthesis, and with it, cell
growth and division. Cancer cells tend to grow rapidly,
so antifolate therapy affects them disproportionately,
but healthy cells can also be damaged.
Pemetrexed had been known for at least a decade in
2001. Lilly’s U.S. Patent 5,344,932 (“Taylor”) disclosed
that certain glutamic acid derivatives with
pyrrolo[2,3d]pyrimidine heterocyclic ring structures,
exemplified by pemetrexed, are “particularly active ...
inhibitors of thymidylate synth[ase],” Taylor col. 1 ll. 59–
60; see also id. col. 19 l. 37–col. 20 l. 25 (disclosing data
indicating that pemetrexed inhibits thymidylate
synthase activity in vitro in human cell lines and in vivo
in mice). The Taylor patent also disclosed that its
compounds could be employed as “pharmaceutically
acceptable salt[s],” id. col. 2 l. 35, and that the disodium
salt form was particularly advantageous, id. col. 2 ll. 47–
48. U.S. Patent 4,997,838 (“Akimoto”), to which Lilly
took a license, disclosed a large genus of compounds
containing pyrrolo[2,3-d]pyrimidine heterocyclic ring
structures and a glutamic acid functional group, and that
encompassed pemetrexed.
The Akimoto patent
discloses nearly fifty exemplary compounds, col. 14 l. 61–
col. 16 l. 48, none of which is pemetrexed. Akimoto
further discloses that its compounds may be prepared as
salts of “pharmaceutically acceptable bases,” such as
“alkali metals, alkali earth metals, non-toxic metals,
ammonium, and substituted ammonium.” Id. col. 14 ll.
44–47.

6a
By 2001, Lilly had also published the results of
several clinical trials investigating the use of
pemetrexed disodium as a treatment for different types
of cancer. See, e.g., W. John et al., “Activity of
Multitargeted Antifolate (Pemetrexed Disodium,
LY231514) in Patients with Advanced Colorectal
Carcinoma: Results from a Phase II Study,” Cancer,
88(8):1807–13 (2000). In the course of conducting these
studies, Lilly discovered that pemetrexed disodium
caused severe hematologic and immunologic side effects,
resulting in infections, nausea, rashes, and even some
deaths. See id.; see also Neptune Generics, LLC v. Eli
Lilly & Co., 921 F.3d 1372, 1377–78 (Fed. Cir. 2019)
(discussing Lilly’s response to adverse clinical data), and
Neptune Generics, LLC v. Eli Lilly & Co., No. IPR201600240, 2017 WL 4466557, at *28–30 (P.T.A.B. Oct. 5,
2017) (same). As the ’209 patent teaches, such side
effects are not uncommon among antifolates. See ’209
patent col. 1 ll. 11–14. Some researchers hypothesized
that folic acid deficiency caused these side effects and
suggested supplementing pemetrexed disodium
treatment with folic acid. DRL J.A. 7870 (citing J.F.
Worzalla et al., “Role of Folic Acid in Modulating the
Toxicity and Efficacy of the Multitargeted Antifolate,
LY231514,” Anticancer Research, 18:3235–40 (1998)).
The invention of the ’209 patent is an improved
method of treatment with antifolates, particularly
pemetrexed disodium, through supplementation with a
methylmalonic acid lowering agent and folic acid. Doing
so, according to the patent, lessens antifolate toxicity
without sacrificing efficacy. See ’209 patent col. 10 ll. 17–
53 (reporting that pre-supplementation regimen of

7a
vitamin B12 and folic acid in clinical studies substantially
reduced pemetrexed-induced toxicity and deaths while
delivering a superior chemotherapeutic response rate).
The ’209 patent lists preferred antifolates, including
some then-existing antifolate therapies, as well as
“derivatives described in” several patents including the
Akimoto patent, and “most preferred, Pemetrexed
Disodium.” Id. col. 4 ll. 28–43. Each of the claims of the
’209 patent requires administration of pemetrexed
disodium following administration of folic acid and a
methylmalonic acid lowering agent, specified in some
claims, as well as the Alimta® label, as vitamin B12.
Claim 12 is representative:2
12. An improved method for administering
pemetrexed disodium to a patient in need of
chemotherapeutic treatment, wherein the
improvement comprises:
a) administration of between about 350 μg
and about 1000 μg of folic acid prior to the
first administration of pemetrexed disodium;
b) administration of about 500 μg to about
1500 μg of vitamin B12, prior to the first
administration of pemetrexed disodium; and
c) administration of pemetrexed disodium.

2

The district court treated claim 12 as representative, DRL
Summary Judgment Decision, 2017 WL 6387316, at *1-2; Hospira
Decision, 2018 WL 3008570, at *2, and no party has disputed that
determination on appeal. See, e.g., DRL Opening Br. 8-9; Hospira
Opening Br. 23.

8a
In a parent application, Application 10/297,821 (the
“’821 application”), Lilly originally sought broad claims
to methods of administering an antifolate in conjunction
with a methylmalonic acid lowering agent, with or
without folic acid. The original independent claims 2 and
5 read:
2. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an effective
amount of said antifolate in combination with
a methylmalonic acid lowering agent.
5. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an effective
amount of said antifolate in combination with
a methylmalonic acid lowering agent and
FBP binding agent.
DRL J.A. 7860. A dependent claim further limited the
antifolate to pemetrexed disodium. Id. at 7861.
Claim 2 was rejected as anticipated by F.G.
Arsenyan et al., “Influence of Methylcobalamin on the
Antineoplastic Activity of Methotrexate,” Onkol.
Nauchn., 12(10):1299-1303 (1978), which disclosed
experiments treating mice with various tumors with a
combination of methotrexate, an antifolate, and
methylcobalamin, a vitamin B12 derivative. The rest of
the pending claims, including Claim 5, were rejected as
obvious over a collection of references: U.S. Patent

9a
5,431,925 (“Ohmori”)—which taught treatment of
chemotherapeutically-induced immunosuppression with
a combination of vitamins that could include folic acid
and vitamin B12—Worzalla, John, and Arsenyan. ’821
application, Sept. 27, 2004, Office Action; DRL J.A.
7868–72.
In response, Lilly amended both claims to narrow
“antifolate” to “pemetrexed disodium” and cancelled its
dependent claim limited to pemetrexed disodium. ’821
application, Jan. 25, 2005, Response to Office Action;
DRL J.A. 7877–84. In its remarks, Lilly asserted that
the amendment to claim 2 overcame the anticipation
rejection because Arsenyan does not disclose
pemetrexed disodium. Id. To overcome the obviousness
rejection of claim 5 and its dependents, Lilly generally
argued that, while John discloses hematologic and
immunologic toxicities from administration of
pemetrexed disodium, it never suggests vitamin
supplementation, and none of the other references
“teach the use of [vitamin B12] to reduce toxicities
associated with an antifolate.” Id. The examiner then
withdrew the anticipation rejection and later withdrew
the obviousness rejection. The ’821 application issued as
U.S. Patent 7,053,065, and the ’209 patent later issued
from a continuation application.
These appeals were taken from cases which are
among the latest in a series of patent disputes about
Alimta® that reaches back more than a decade.3 In this

3

This is the fourth appeal we have decided concerning Alimta® and
the third specifically concerning the ’209 patent. See Neptune
Generics, 921 F.3d 1372; Eli Lilly & Co. v. Teva Parenteral Meds.,

10a
most recent chapter, DRL, Hospira, and Actavis4
submitted New Drug Applications under § 505(b)(2) of
the Federal Food, Drug, and Cosmetic Act, 21 U.S.C.
§ 355(b)(2), relying on Lilly’s clinical data for
pemetrexed disodium. But each applicant seeks to
market different pemetrexed salts—in DRL’s and
Hospira’s applications, pemetrexed ditromethamine.
Both DRL and Hospira represented to the FDA that
their choice of the tromethamine cation was immaterial
because pemetrexed dissociates from its counterion in
solution, DRL J.A. 8555–57; Hospira J.A. 124, and
tromethamine was known to be safe for pharmaceutical
use, DRL J.A. 8555, 8557.
Lilly then asserted the ’209 patent against each of
these NDA applicants in the United States District
Court for the Southern District of Indiana. In the DRL
case, the district court construed the phrase
“administration of pemetrexed disodium” to mean
“liquid administration of pemetrexed disodium,” which
“is accomplished by dissolving the solid compound
pemetrexed disodium into solution.” DRL Summary

Inc., 845 F.3d 1357 (Fed. Cir. 2017); Eli Lilly & Co. v. Teva
Parenteral Meds., Inc., 689 F.3d 1368 (Fed. Cir. 2012).
4

Lilly also sued Actavis LLC (“Actavis”) for infringement of the
’209 patent, Eli Lilly & Co. v. Actavis LLC, No. 1:17-cv-00982-TWPMPB (S.D. Ind. Mar. 30, 2017), ECF No. 1, but the parties stipulated
to be bound by the district court’s decision in the DRL case that
neither prosecution history estoppel nor the disclosure-dedication
rule bars Lilly’s assertion of infringement through the doctrine of
equivalents. Actavis Br. 2. Actavis filed a brief in the DRL appeal
as amicus curiae requesting reversal of that portion of the district
court’s decision.

11a
Judgment Decision, 2017 WL 6387316, at *4. The
district court denied DRL’s motion for summary
judgment of noninfringement, holding that prosecution
history estoppel does not bar Lilly from asserting that
DRL’s proposed pemetrexed ditromethamine product
would infringe through the doctrine of equivalents
because the reason for Lilly’s amendment was to
distinguish other antifolates and was therefore only
tangential to pemetrexed ditromethamine. Id. at *6–7.
The district court also rejected DRL’s argument that
Lilly dedicated pemetrexed ditromethamine to the
public under the disclosure-dedication rule through its
reference to Akimoto’s antifolate compounds because
Akimoto is not incorporated by reference into the ’209
patent and in any event discloses pemetrexed
ditromethamine only within a genus of thousands of
compounds, which the district court held does not
constitute the requisite disclosure of an identifiable
alternative under this court’s precedent. Id. at *7–8; see,
e.g., SanDisk Corp. v. Kingston Tech. Co., 695 F.3d 1348,
1363 (Fed. Cir. 2012).
Following a bench trial, the district court’s opinion
largely followed its rationale in the DRL Summary
Judgment Decision with respect to the applicability of
prosecution history estoppel and the disclosurededication rule. DRL Decision, 323 F. Supp. 3d at 1046–
48. In addition, the court found that DRL’s proposed
product would be administered in a manner that would
meet the “administration of pemetrexed disodium” step
of the asserted claims under the doctrine of equivalents,
id. at 1049, regardless of the “differences in chemical

12a
properties between pemetrexed disodium
pemetrexed ditromethamine,” id. at 1050.

and

In the Hospira case, the parties similarly disputed
the doctrine of equivalents, but Lilly also asserted literal
infringement because Hospira’s proposed product label
allows reconstitution of its pemetrexed ditromethamine
salt in saline. Hospira Decision, 2018 WL 3008570, at
*2–3; Hospira J.A. 229. After the district court issued
the DRL Summary Judgment Decision, Hospira
conceded, contingent upon its right to appeal, that its
product would infringe under the claim construction of
“administration of pemetrexed disodium” set forth in
that opinion and that its doctrine of equivalents
arguments were likewise foreclosed. Hospira Br. 18.
The district court, “rel[ying] heavily” on the DRL
Summary Judgment Decision, granted Lilly’s motion
for summary judgment of infringement, both literally
and under the doctrine of equivalents.
Hospira
Decision, 2018 WL 3008570, at *1 n.2, *6.
These appeals followed. We have jurisdiction under
28 U.S.C. § 1295(a)(1).
DISCUSSION
We review a district court’s grant of summary
judgment according to the law of the regional circuit.
Kaneka Corp. v. Xiamen Kingdomway Grp. Co., 790
F.3d 1298, 1303 (Fed. Cir. 2015) (citing Halo Elecs., Inc.
v. Pulse Elecs., Inc., 769 F.3d 1371, 1377 (Fed. Cir.
2014)). In the Seventh Circuit, summary judgment is
reviewed de novo, construing all facts and drawing all
inferences in favor of the non-movant. Wis. Alumni
Research Found. v. Apple Inc., 905 F.3d 1341, 1352 (Fed.

13a
Cir. 2018) (citing Austin v. Walgreen Co., 885 F.3d 1085,
1087 (7th Cir. 2018)). On appeal from a bench trial, we
review a district court’s conclusions of law de novo and
its findings of fact for clear error. Braintree Labs., Inc.
v. Novel Labs., Inc., 749 F.3d 1349, 1358 (Fed. Cir. 2014)
(citing Brown & Williamson Tobacco Corp. v. Philip
Morris Inc., 229 F.3d 1120, 1123 (Fed. Cir. 2000)). A
factual finding is clearly erroneous if, despite some
supporting evidence, we are left with the definite and
firm conviction that a mistake has been made. United
States v. U.S. Gypsum Co., 333 U.S. 364, 395, 68 S.Ct.
525, 92 L.Ed. 746 (1948).
Claim construction is ultimately an issue of law,
which we review de novo. Shire Dev., LLC v. Watson
Pharm., Inc., 787 F.3d 1359, 1364 (Fed. Cir. 2015). We
review de novo the district court’s findings of fact on
evidence “intrinsic to the patent (the patent claims and
specification[], along with the patent’s prosecution
history),” and review for clear error extrinsic findings of
fact. Teva Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct.
831, 841 (2015). While infringement is a question of fact,
Lucent Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1309
(Fed. Cir. 2009), we review de novo the district court’s
grant of summary judgment of noninfringement,
Unwired Planet, LLC v. Apple Inc., 829 F.3d 1353, 1356
(Fed. Cir. 2016). To prove infringement, a patentee
“must supply sufficient evidence to prove that the
accused product or process contains, either literally or
under the doctrine of equivalents, every limitation of the
properly construed claim.” Seal-Flex, Inc. v. Athletic
Track & Court Const., 172 F.3d 836, 842 (Fed. Cir. 1999).
The patentee has the burden of proving infringement by

14a
a preponderance of the evidence. SmithKline
Diagnostics, Inc. v. Helena Labs. Corp., 859 F.2d 878,
889 (Fed. Cir. 1988).
Hospira requests reversal of the district court’s
finding that its submission of a § 505(b)(2) NDA for its
pemetrexed product literally infringed the claims of the
’209 patent. DRL and Hospira both argue, as does the
amicus curiae Actavis, that the district court erred as a
matter of law by refusing to apply prosecution history
estoppel to bar Lilly’s doctrine of equivalents claim, and
DRL further contends that the disclosure-dedication
rule precludes Lilly’s equivalents claim. Finally, DRL
disputes the district court’s finding that administration
of pemetrexed ditromethamine is equivalent to the claim
element “administration of pemetrexed disodium.” We
address each argument in turn.
A. Literal Infringement
Hospira argues that it cannot literally infringe the
claims of the ’209 patent because intravenous
administration of pemetrexed ditromethamine dissolved
in saline—a solution which contains pemetrexed and
chloride anions alongside sodium and tromethamine
cations—is not “administration of pemetrexed
disodium.” Hospira also notes that such a solution will,
in any case, contain far more than two sodium cations per
pemetrexed anion. Finally, Hospira appears to make a
perfunctory argument that, in the alternative, we should
reverse the district court’s construction and hold that
the term encompasses any route of administering
pemetrexed disodium, not just liquid, as the district
court’s construction requires.

15a
Lilly counters that Hospira’s view improperly
imposes a “source limitation,” requiring that the
pemetrexed disodium salt exist in solid form before
administration, even though Hospira’s proposed product
label, like that of Alimta®, calls for administration of a
solution containing pemetrexed anions and sodium
cations. Lilly also contends that Hospira’s claim
construction arguments are irrelevant because
Hospira’s proposed product will be administered
intravenously anyway.
We agree with Hospira. It was clearly erroneous for
the district court to hold that the “administration of
pemetrexed disodium” step was met because Hospira’s
pemetrexed ditromethamine product will be dissolved in
saline before administration. A solution of pemetrexed
and chloride anions and tromethamine and sodium
cations cannot be deemed pemetrexed disodium simply
because some assortment of the ions in the solution
consists of pemetrexed and two sodium cations. As Lilly
acknowledges throughout its brief, pemetrexed
disodium is a salt. See, e.g., Lilly Br. I 12 (pemetrexed
toxicity is caused “by pemetrexed itself once dissociated
in solution,” not pemetrexed disodium); see also Hospira
J.A. 1596 (October 2017 Alimta® Label referring to the
drug substance as the “disodium salt” of pemetrexed).
Once diluted, the salt’s crystalline structure dissolves,
and the individual ions dissociate. See Hospira J.A. 2820
(declaration of Lilly’s expert).
In other words,
pemetrexed disodium no longer exists once dissolved in
solution, and, as a corollary, a different salt of
pemetrexed dissolved in saline is not pemetrexed
disodium.

16a
We conclude that to literally practice the
“administration of pemetrexed disodium” step under the
district court’s claim construction, the pemetrexed
disodium salt must be itself administered. See DRL
Summary Judgment Decision, 2017 WL 6387316, at *4
(“‘[A]dministration of pemetrexed disodium’ . . . refer[s]
to a liquid administration of pemetrexed disodium. . . ,
accomplished by dissolving the solid compound
pemetrexed disodium into solution . . .”); see also Tex.
Instruments Inc. v. Cypress Semiconductor Corp., 90
F.3d 1558, 1563 (Fed. Cir. 1996) (“To literally infringe,
the accused . . . process must contain every limitation of
the asserted claim.” (citing Laitram Corp. v. Rexnord,
Inc., 939 F.2d 1533, 1535 (Fed. Cir. 1991))). There is no
dispute that Hospira has only sought approval to market
pemetrexed ditromethamine, Lilly Br. I 4, and that
neither its proposed product nor methods of
administering it will constitute administering the
pemetrexed disodium salt. Accordingly, Hospira will
not practice the step of “administration of pemetrexed
disodium,” and the district court’s finding of literal
infringement must be reversed.
B. Doctrine of Equivalents
Few propositions of patent law have been so
consistently sustained by the Supreme Court as the
doctrine of equivalents. See Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 733, 122
S.Ct. 1831, 152 L.Ed.2d 944 (2002) (“Festo VIII”)
(“[E]quivalents remain a firmly entrenched part of the
settled rights protected by the patent.”); WarnerJenkinson Co. v. Hilton Davis Chem. Co., 520 U.S. 17,
40, (1997) (“[W]e adhere to the doctrine of equivalents.”);

17a
Graver Tank & Mfg. Co. v. Linde Air Prods. Co., 339
U.S. 605, 608, (1950) (“Originating almost a century ago
in the case of Winans v. Denmead, [56 U.S. 330 (1853)]
. . . [the doctrine of equivalents] has been consistently
applied by this Court and the lower federal courts, and
continues today ready and available for utilization when
the proper circumstances for its application arise.”). It
is settled that a patentee is entitled “in all cases to
invoke to some extent the doctrine of equivalents,”
Seymour v. Osborne, 78 U.S. 516, 555 (1870), without a
“judicial exploration of the equities of a case”
beforehand. See Warner-Jenkinson, 520 U.S. at 34.
Yet the Supreme Court has also acknowledged that
the doctrine of equivalents, “when applied broadly,
conflicts with the definitional and public-notice functions
of the statutory claiming requirement,” WarnerJenkinson, 520 U.S. at 29, and that, without the proper
balance between these two imperatives, the doctrine
may “take[] on a life of its own, unbounded by the patent
claims.” See id. at 28–29. We have emphasized,
moreover, that the doctrine of equivalents is “the
exception, however, not the rule,” and not merely “the
second prong of every infringement charge, regularly
available to extend protection beyond the scope of the
claims.” London v. Carson Pirie Scott & Co., 946 F.2d
1534, 1538 (Fed. Cir. 1991). Patent infringement is
principally determined by examining whether the
accused subject matter falls within the scope of the
claims.
To that end, courts have placed important limitations
on a patentee’s ability to assert infringement under the
doctrine of equivalents. See, e.g., Festo VIII, 535 U.S. at

18a
737–41 (prosecution history estoppel); WarnerJenkinson, 520 U.S. at 39 n.8 (“[A] theory of equivalence
[cannot] entirely vitiate a particular claim element
. . . .”); Graver Tank, 339 U.S. at 608 (accused equivalent
cannot differ substantially from the claimed invention);
Johnson & Johnston Assocs. Inc. v. R.E. Serv. Co., 285
F.3d 1046, 1054 (Fed. Cir. 2002) (en banc) (subject
matter disclosed but not claimed is dedicated to the
public) (citing Maxwell v. J. Baker, Inc., 86 F.3d 1098
(Fed. Cir. 1996)); Wilson Sporting Goods Co. v. David
Geoffrey & Assocs., 904 F.2d 677, 683 (Fed. Cir. 1990)
(“[T]he asserted scope of equivalency [cannot]
encompass the prior art . . . .” (Rich, J.) (citations
omitted)). These appeals implicate several of these
limitations.
1. Prosecution History Estoppel
The main dispute in these appeals is whether Lilly
has rebutted the presumption of prosecution history
estoppel that attached to its amendment in the ’821
application. Prosecution history estoppel arises when a
patent applicant narrows the scope of his claims during
prosecution for a reason “substantial[ly] relating to
patentability.” See generally Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., 344 F.3d 1359, 1366–67
(Fed. Cir. 2003) (en banc) (“Festo X”). Such a narrowing
amendment is presumed to be a surrender of all
equivalents within “the territory between the original
claim and the amended claim,” but the presumption is
overcome if the patentee can show the applicability of
one of the few exceptions identified by the Supreme
Court. Festo VIII, 535 U.S. at 740–41, (citing Exhibit
Supply Co. v. Ace Patents Corp., 315 U.S. 126, 136–37

19a
(1942)). Whether prosecution history estoppel applies to
bar a doctrine of equivalents claim is a question of law,
reviewed de novo. See Regents of Univ. of Cal. v.
Dakocytomation Cal., Inc., 517 F.3d 1364, 1371 (Fed.
Cir. 2008) (citing Pharmacia & Upjohn Co. v. Mylan
Pharm., Inc., 170 F.3d 1373, 1376 (Fed. Cir. 1999)).
Lilly does not dispute that the amendment in
question was both narrowing and made for a substantial
reason relating to patentability. Lilly Br. II 21.
Furthermore, Lilly relies on only one exception to giving
effect to the presumption as to the scope of surrender:
that the rationale of its amendment “[bore] no more than
a tangential relation to the equivalent in question.”
Festo VIII, 535 U.S. at 740. As a result, the parties’
dispute about whether prosecution history estoppel
applies is confined to whether Lilly’s amendment
narrowing “an antifolate” to “pemetrexed disodium”
was only tangential to pemetrexed ditromethamine,
which is the accused compound. Whether the tangential
exception applies is a question of law, Integrated Tech.
Corp. v. Rudolph Techs., Inc., 734 F.3d 1352, 1356 (Fed.
Cir. 2013), and a patentee seeking to use the exception
“must base his arguments solely upon the public record
of the patent’s prosecution.” Festo X, 344 F.3d at 1369–
70 (citation omitted).
The Appellants argue that Lilly failed to explain why
it did not pursue a narrower amendment literally
encompassing pemetrexed ditromethamine, and they
emphasize our statement that the tangential exception
is “very narrow.” Integrated, 734 F.3d at 1358 (quoting
Cross Med. Prods., Inc. v. Medtronic Sofamor Danek,
Inc., 480 F.3d 1335, 1342 (Fed. Cir. 2007)). The

20a
Appellants further point out that Lilly cannot be said to
have “lacked the words to describe” pemetrexed
ditromethamine, see Festo VIII, 535 U.S. at 734, because
Lilly’s previous patents, as well as the European
companion to the ’209 patent, claimed pemetrexed salts
generally and pemetrexed disodium in a dependent
claim. They also assert that the district court erred by
focusing on whether Lilly actually needed to relinquish
pemetrexed ditromethamine to overcome the Arsenyan
anticipation rejection because “the tangential exception
is not a patentee’s-buyer’s-remorse exception.” DRL
Br. 39.
In response, Lilly argues that the district court
properly held that the reason for its amendment was to
distinguish pemetrexed from antifolates generally and
that the different salt type is a merely tangential change
with no consequence for pemetrexed’s administration or
mechanism of action within the body. Lilly also contends
that it is not barred from asserting the tangential
exception simply because pemetrexed ditromethamine
is within “the territory between the original claim and
the amended claim.” Festo VIII, 535 U.S. at 740.
Finally, Lilly argues that Appellants’ view that courts
must “consider hypothetical alternative amendments”
that would literally encompass the alleged equivalent
“would eviscerate the tangentiality exception.” Lilly Br.
II 44.
We agree with Lilly. As a general matter, we find
Appellants’ view of prosecution history estoppel, and the
tangential exception in particular, too rigid. Tangential
means “touching lightly or in the most tenuous way.”
Webster’s Third New International Dictionary (2002).

21a
The reason for Lilly’s amendment, as the district court
concluded, was to narrow original claim 2 to avoid
Arsenyan, which only discloses treatments using
methotrexate, a different antifolate. See DRL J.A.
7879–80 (overcoming the Arsenyan anticipation
rejection by arguing that it “does not disclose
pemetrexed disodium”).
To overcome a clear
anticipation, Lilly opted to narrow its original claim 2
and its dependents to more accurately define what it
actually invented, an improved method of administering
pemetrexed. In other words, the particular type of salt
to which pemetrexed is complexed relates only
tenuously to the reason for the narrowing amendment,
which was to avoid Arsenyan. We therefore hold that
Lilly’s amendment was merely tangential to pemetrexed
ditromethamine because the prosecution history, in view
of the ’209 patent itself, strongly indicates that the
reason for the amendment was not to cede other,
functionally identical, pemetrexed salts.
The prosecution record confirms our understanding.
Original claim 5, which, like all the current claims of the
’209 patent, required supplementation with both vitamin
B12 and folic acid, was never rejected as anticipated over
Arsenyan. Instead, the art cited against original claim 5
and its dependent claims in the obviousness ground of
rejection was replete with information about
pemetrexed disodium; John disclosed clinical trials using
pemetrexed disodium, reporting both its efficacy and its
toxic side effects, and in response, DRL J.A. 7869–70,
Worzalla suggested folic acid supplementation to
counteract these side effects, DRL J.A. 7870–71. The
prosecution record implies that Lilly’s amendment,

22a
inartful though it might have been, was prudential in
nature and did not need or intend to cede other
pemetrexed salts.
Hospira argues that the amendment was made to
overcome the obviousness rejection over Ohmori and
John and that Lilly has provided no reason for the
amendment relative to that rejection. Like Lilly, we find
this argument makes little sense. John discloses the
results of a clinical trial of pemetrexed disodium and
explicitly suggests the toxicities caused by pemetrexed;
as we concluded above, narrowing “antifolate” to
“pemetrexed disodium” could not possibly distinguish
the art cited in the obviousness ground of rejection.
DRL also insists that we have held that an
applicant’s remorse at ceding more claim scope than
necessary is not a reason for the tangential exception to
apply. See, e.g., Lucent Techs., Inc. v. Gateway, Inc., 525
F.3d 1200, 1218 (Fed. Cir. 2008); Schwarz Pharma, Inc.
v. Paddock Labs., Inc., 504 F.3d 1371, 1377 (Fed. Cir.
2007). This is generally true, but DRL overreads the
holdings of these cases. After all, the tangential
exception only exists because applicants over-narrow
their claims during prosecution. Amendments are not
construed to cede only that which is necessary to
overcome the prior art, see Schwarz, 504 F.3d at 1377,
nor will the court “speculat[e]” whether an amendment
was necessary, see Kinzenbaw v. Deere & Co., 741 F.2d
383, 389 (Fed. Cir. 1984). But the reason for an
amendment, where the tangential exception is invoked,
cannot be determined without reference to the context
in which it was made, including the prior art that might
have given rise to the amendment in the first place. See

23a
Festo X, 344 F.3d at 1370. Here, it is unlikely that a
competitor would have been “justified in assuming that
if he [made an equivalent pemetrexed salt], he would not
infringe [the ’209 patent].” Kinzenbaw, 741 F.2d at 389;
cf. Festo VIII, 535 U.S. at 738 (“There is no reason why
a narrowing amendment should be deemed to relinquish
equivalents . . . beyond a fair interpretation of what was
surrendered.”).
Furthermore, Appellants’ suggestion that Lilly must
prove that it could not have drafted a claim that literally
encompassed
pemetrexed
ditromethamine
is
unsupported by our precedent on prosecution history
estoppel, not to mention excessive. We do not demand
perfection from patent prosecutors, and neither does the
Supreme Court. See Festo VIII, 535 U.S. at 738 (“It does
not follow . . . that [an] amended claim becomes so perfect
in its description that no one could devise an
equivalent.”).
Lilly’s burden was to show that
pemetrexed ditromethamine was “peripheral, or not
directly relevant,” to its amendment, Festo X, 344 F.3d
at 1369. And as we concluded above, Lilly has done so.
In addition, the Appellants maintain that when a
patentee submits an amendment adding two claim
limitations, it cannot later argue that the reason for the
amendment was tangential to an accused equivalent
containing only one of the added limitations simply
because the second limitation was unnecessary to
overcome the prior art. They offer Felix v. American
Honda Motor Co., 562 F.3d 1167 (Fed. Cir. 2009), as an

24a
illustration of this principle.5 In that case, we held that
prosecution history estoppel applied to a claim directed
to a vehicle bed storage system—limited in response to
a rejection to having a channel with a flange and a gasket
mounted on that flange—barring assertion of
equivalence with respect to a product that met the
channel aspect, but not the gasket aspect, of the
limitation. Id. at 1184–85.
But as Lilly points out, this holding was determined
by that patent’s prosecution history, Felix, 562 F.3d at
1184, and we have also held that prosecution history
estoppel does not apply in similar circumstances, where
the prosecution record differed. See, e.g., Regents, 517
F.3d at 1376–78 (amendment narrowing “disabling
hybridization capacity of [nucleic acid] sequences” to
methods using a “blocking nucleic acid” was merely
tangential to unclaimed repetitive sequence nucleic
acids); Insituform Techs., Inc. v. CAT Contracting, Inc.,
385 F.3d 1360, 1368 (Fed. Cir. 2004) (amendment
5

The parties argue at length about which of our cases are properly
analogous to the facts presented in these appeals. Here, in applying
the Supreme Court’s framework, we find the analogies to other
cases less helpful than a direct consideration of the specific record
of this case and what it shows about the reason for amendment and
the relation of that reason to the asserted equivalent. This casespecific focus, within the governing framework, comports with the
equitable nature of prosecution history estoppel. See Festo VIII,
535 U.S. at 738 (“[The Supreme Court has] consistently applied the
doctrine in a flexible way, not a rigid one.”); cf. Heckler v. Cmty.
Health Servs. of Crawford Cty., Inc., 467 U.S. 51, 59 (1984)
(“Estoppel is an equitable doctrine invoked to avoid injustice in
particular cases. . . .[and] a hallmark of the doctrine is its flexible
application . . . .”).

25a
narrowing method of inserting resin into tube using a
vacuum to one using “a cup” to do so was merely
tangential to a multiple cup embodiment because the
number of cups bore no relationship to the cited prior art
or the rationale behind the narrowing amendment).
Thus, our cases demonstrate that prosecution history
estoppel is resistant to the rigid legal formulae that
Appellants seek to extract from them. See Intervet Inc.
v. Merial Ltd., 617 F.3d 1282, 1291 (Fed. Cir. 2010)
(“[T]here is no hard-and-fast test for what is and what is
not a tangential relation . . . .”).
Finally, DRL also contends that our precedent
squarely forecloses Lilly’s tangentiality argument, and
it invites us to read those cases to hold that “where the
reason for the amendment and the equivalent in
question both relate to the same claim element, the
tangential exception does not apply.” DRL Br. 47. We
decline this invitation because such a bright-line rule is
both contrary to the equitable nature of prosecution
history estoppel, as articulated in Festo VIII, 535 U.S. at
738, and inconsistent with the equitable spirit that
animates the doctrine of equivalents, see Graver Tank,
339 U.S. at 608–09 (the doctrine is one of “wholesome
realism”). Instead, we reaffirm that whether an
amendment was merely tangential to an equivalent must
be decided in the context of the invention disclosed in the
patent and the prosecution history. Festo X, 344 F.3d at
1370.
DRL’s intuition—that an amendment that narrows
an existing claim element evinces an intention to
relinquish that claim scope—is often correct. Indeed, as
we have found in previous cases, it is a powerful

26a
indication that an amendment was not merely
tangential. See, e.g., Honeywell Int’l, Inc. v. Hamilton
Sundstrand Corp., 523 F.3d 1304, 1315–16 (Fed. Cir.
2008); Biagro W. Sales, Inc. v. Grow More, Inc., 423 F.3d
1296, 1306 (Fed. Cir. 2005). But here, we conclude that
this consideration is not dispositive because the rest of
the prosecution history, and the ’209 patent itself, show
that it is implausible that the reason for Lilly’s
amendment was to surrender other pemetrexed salts.
Indeed, such a relinquishment would effectively
dedicate the entirety of Lilly’s invention to the public
and thereby render the ’209 patent worthless, and it
would have been irrelevant for distinguishing the prior
art. Again, the prosecution history strongly indicates a
less sweeping and more sensible reason for Lilly’s
amendment:
to surrender antifolates other than
pemetrexed. Thus, we conclude on this prosecution
record that Lilly’s amendment was merely tangential to
pemetrexed ditromethamine.
2. Disclosure-Dedication Rule
DRL next argues that the disclosure-dedication rule
bars Lilly from asserting infringement under the
doctrine of equivalents. The ’209 patent sets forth its
invention as an improved method of administering
antifolates, ’209 patent col. 2 ll. 47–58, and teaches that
the derivatives described in the Akimoto patent are
preferred examples of antifolates, id. col. 4 ll. 34–40.
DRL contends that one of these derivatives is
pemetrexed ditromethamine and that it was dedicated
to the public when Lilly declined to claim it. DRL
asserts that the district court erred because it both
required express incorporation of Akimoto by reference

27a
into the ’209 patent and concluded that Akimoto does not
specifically disclose pemetrexed ditromethamine.
Lilly counters that the disclosure-dedication rule
requires express disclosure of the subject matter in
question in the specification except in narrow
circumstances, such as when that subject matter is
disclosed in a priority application, see Abbott Labs. v.
Sandoz, Inc., 566 F.3d 1282, 1297 (Fed. Cir. 2009), or
prior art expressly incorporated by reference, SanDisk,
695 F.3d at 1366. Lilly also argues that the district court
correctly determined that the relevant portion of
Akimoto discloses only a generic formula from which a
skilled artisan would not be able to recognize
pemetrexed ditromethamine.
We agree with Lilly and hold that the disclosurededication rule is inapplicable to this case because the
’209 patent does not disclose methods of treatment using
pemetrexed ditromethamine, and, as a result, Lilly could
not have dedicated such a method to the public.
Under the disclosure-dedication rule, subject matter
disclosed by a patentee, but not claimed, is considered
dedicated to the public. See Johnson & Johnston, 285
F.3d at 1054. The reason for the doctrine is that
members of the public reading a disclosure of particular
subject matter are entitled, absent a claim to it, to
assume that it is not patented and therefore dedicated to
the public (unless, for example, claimed in a continuation
or other application based on the disclosure). Cf.
Maxwell, 86 F.3d at 1107 (failure to claim inventive
subject matter “is clearly contrary to 35 U.S.C. § 112,
which requires that a patent applicant ‘particularly
point[] out and distinctly claim[] the subject matter

28a
which the applicant regards as his invention’”). Subject
matter is considered disclosed when a skilled artisan
“can understand the unclaimed disclosed teaching upon
reading the written description,” but not “any generic
reference . . . necessarily dedicates all members of that
particular genus.” PSC Comput. Prod., Inc. v. Foxconn
Int’l, Inc., 355 F.3d 1353, 1360 (Fed. Cir. 2004).
DRL further contends that the disclosure-dedication
rule does not impose a § 112 requirement for sufficiency
of disclosure, see Toro Co. v. White Consol. Indus., Inc.,
383 F.3d 1326, 1334 (Fed. Cir. 2004), and that a skilled
artisan reading the ’209 patent would both look for a
disclosure of pemetrexed in Akimoto, and also seek to
use a well-known cation like tromethamine, which it
maintains is generically disclosed in Akimoto in the form
of “substituted ammonium” base salts.
We are unpersuaded by DRL’s arguments. As the
district court noted, Akimoto’s formula, col. 1 l. 49–col. 2
l. 3, includes seven functional group variables and
encompasses thousands of compounds, and while
Akimoto discloses about fifty exemplary compounds,
none of them is pemetrexed. Moreover, Akimoto does
not even disclose tromethamine expressly but only
generically among dozens of other salts. At most,
Akimoto discloses ammonium salts generally, which is
far from a description of tromethamine. In similar
circumstances, we have held that “sufficient description
of a genus” requires that a skilled artisan be able to
“‘visualize or recognize’ the members of the genus.” See
Ariad Pharm., Inc. v. Eli Lilly & Co., 598 F.3d 1336,
1350 (Fed. Cir. 2010) (quoting Regents of the Univ. of
Cal. v. Eli Lilly & Co., 119 F.3d 1559, 1568–69 (Fed. Cir.

29a
1997)). Akimoto does not so describe pemetrexed
ditromethamine, and we see no reason why a skilled
artisan would set out on DRL’s winding path to cobble
together pemetrexed ditromethamine. While the ’209
patent teaches that pemetrexed disodium is the “most
preferred” antifolate, that knowledge would not change
the skilled artisan’s understanding of what Akimoto
discloses.
Because Akimoto contains only a “generic reference”
to pemetrexed ditromethamine, PSC Comput., 355 F.3d
at 1360, we conclude that it was not dedicated to the
public.
3. Merits
A component in an accused product or process may
be equivalent to a claim element if the two are
insubstantially different with respect to the “role played
by [the] element in the context of the specific patent
claim.” Warner-Jenkinson, 520 U.S. at 39–40. Relevant
differences can include the function each serves, the way
in which each works, and the result each obtains, id. at
39, and, especially in biochemical cases, structural or
pharmacological characteristics, Mylan Inst. LLC v.
Aurobindo Pharm. Ltd., 857 F.3d 858, 869 (Fed. Cir.
2017). “The determination of equivalency vel non is a
question of fact,” Canton Bio Med., Inc. v. Integrated
Liner Techs., Inc., 216 F.3d 1367, 1369 (Fed. Cir. 2000)
(citing Pall Corp. v. Micron Separations, Inc., 66 F.3d
1211, 1218 (Fed. Cir. 1995)), which we review for clear

30a
error in an appeal from a bench trial, Pfizer, Inc. v.
Apotex, Inc., 480 F.3d 1348, 1359 (Fed. Cir. 2007).
DRL argues that the district court erred in finding
that its proposed pemetrexed ditromethamine product
will be administered in an insubstantially different way
from the claimed method. DRL maintains that the
district court focused on the fact that each product treats
the same diseases by delivering pemetrexed
intravenously, when the relevant context is the manner
of administration.
In DRL’s view, the chemical
differences between sodium and tromethamine—e.g.,
pH, buffering capacity, or solubility—DRL Br. 20–21,
render the methods in which each is administered to a
patient substantially different.
Lilly responds that the relevant context is treatment
of a patient “in need of chemotherapeutic treatment.”
’209 patent claim 12. Lilly agrees with the district court
that the chemical differences between sodium and
tromethamine are clinically irrelevant because each
undisputedly lacks therapeutic activity.
We see no clear error in the district court’s findings.
As the district court found, DRL’s product will
accomplish an identical aim, furnishing the same amount
of pemetrexed to active sites in the body; in exactly the
same way, by diluting a pemetrexed salt in an aqueous
solution for intravenous administration. Indeed, after
dilution and immediately before administration, DRL’s
product is functionally identical to Lilly’s in that it
contains the same amount of diluted pemetrexed anion.
DRL J.A. 8557. And DRL declines to identify the
relevance of any of the chemical differences it identifies.
See UCB, Inc. v. Watson Labs. Inc., 927 F.3d 1272, 1284–

31a
86 (Fed. Cir. 2019) (chemical differences may not be
relevant if the equivalent has known interchangeability
in the context of the claimed composition). We find
DRL’s arguments unconvincing and therefore affirm the
district court’s findings.
In summary, these cases are eminently suitable for
application of the doctrine of equivalents, and we
conclude that neither prosecution history estoppel nor
the disclosure-dedication rule bars Lilly from asserting
infringement through equivalence.
CONCLUSION
We have fully considered each party’s further
arguments but find them unpersuasive. For the
foregoing reasons, we reverse the district court’s finding
of literal infringement in the Hospira Decision but
affirm its judgment of infringement under the doctrine
of equivalents. The judgment of infringement under the
doctrine of equivalents in the DRL Decision is likewise
affirmed.
AFFIRMED-IN-PART AND REVERSED-INPART IN APPEAL NOS. 2018-2126, 2018-2127
AFFIRMED IN APPEAL NO. 2018-2128
COSTS
Each party shall bear its own costs.

32a
Appendix B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
ELI LILLY AND COMPANY, )
)
Plaintiff,
)
)
v.
) Case No.
) 1:16-cv-03460-TWP-MPB
HOSPIRA, INC.,
)
)
Defendant.
)
ENTRY ON CROSS MOTIONS FOR
SUMMARY JUDGMENT
Before the Court are the parties’ cross-motions for
summary judgment. Eli Lilly and Company (“Lilly”)
initiated this Hatch-Waxman litigation against
Defendant Hospira, Inc. (“Hospira”) for infringement of
Lilly’s U.S. Patent 7,772,209 (“the ‘209 Patent”). On
April 6, 2018, Hospira filed a Motion for Summary
Judgment of Non-Infringement on its New Drug
Application (“NDA”) No. 208746, on the bases that there
is no plausible theory pled under which Hospira would
infringe the patent in suit and the doctrine of equivalents
does not expand the scope of Lilly’s patent to include
Hospira’s product. (Filing No. 73.) On April 27, 2018,
Lilly filed a Cross-Motion for Summary Judgment of
Infringement. (Filing No. 78.) For the reasons stated

33a
below, the Court grants Lilly’s Cross-Motion for
Summary Judgment, and denies Hospira’s Motion for
Summary Judgment.
I.

BACKGROUND

The ’209 Patent describes a method of administering
the chemotherapy drug, pemetrexed disodium, with a
pretreatment regimen of vitamin B12 and folic acid (the
“pretreatment regimen”), which is marketed by Lilly
under the trade name ALIMTA®. The ’209 Patent has
been the subject of previous trials before this Court. See
Eli Lilly and Co. v. Teva Parenteral Medicines, Inc., 126
F. Supp.3d 1037, 1038 (S.D. Ind. 2015).1 Two of those
cases specifically concerned generic drug manufacturers
that sought to market a generic version of ALIMTA®
including labeling that induced physicians to direct
patients to take folic acid and vitamin B12 in accordance
with the pretreatment claims in the ’209 Patent.
Specifically, in the Teva case, the pretreatment regimen
and whether the steps of the claimed method could be
attributed to a single actor was at issue. Id. On
February 1 and 2, 2018, this Court held a bench trial in
Eli Lilly & Co. v. Dr. Reddy’s Laboratories, Ltd., No.
1:16-cv-308-TWP-MPB (the “Dr. Reddy’s Case”)
involving primarily the same alleged infringing drug
product at issue in this action: pemetrexed
ditromethamine.2

1

The ’209 Patent is also the subject of other pending infringement
suits pending before this Court.

2

Because Hospira has conceded that many of the case-dispositive
questions were all resolved against its interest in the Court’s
summary judgment ruling in the Dr. Reddy’s Case, the Court relies

34a
During prosecution of its patent application for
ALIMTA®, the U.S. Patent and Trademark Office
originally rejected claim 2 of the ’209 Patent as being
anticipated by a prior art article, Arsenyan et.al.
(“Arsenyan”). Arsenyan concerned the administration
of the compound methotrexate.3 (Filing No. 76-3 at 105.)
To avoid rejection of its patent in view of Arsenyan, Lilly
narrowed the scope of its claims from a broad category
of antifolates to specifically pemetrexed disodium.
(Filing No. 76-3 at 123.)
Similar to the issue in Dr. Reddy’s Case, Hospira has
also developed and designed a competing pemetrexed
drug product, which uses a salt base, tromethamine,
rather than the sodium base contained in Lilly’s
product.4 Hospira seeks to market its product in the
form of a new product that uses pemetrexed
ditromethamine, unlike the generic drugs in previous
trials before the Court. In large part, the issues in the
present case and the Dr. Reddy’s Case are the same.
However, unlike Dr. Reddy’s label, Hospira’s label
instructs that it can be reconstituted in saline solution
(like ALIMTA®) in addition to 5% dextrose solution

heavily on the analysis contained therein in resolving the present
cross-summary judgment motion in this case. (See Filing No. 79-3.)
3

Both methotrexate and pemetrexed fall within the broader
antifolate group, but they target different enzymes. (See Filing No.
79 at 24.)

4

Although Hospira’s drug label is slightly different, Hospira’s drug
product is identical to that in the Dr. Reddy’s Case. (Filing No. 741 at 15.)

35a
(like Dr. Reddy’s product). (Filing No. 49-29; Filing No.
74-1 at 15-16.)
A point of contention between the parties is whether
pemetrexed ditromethamine was excluded (thus,
designated public use) from the claims during patent
prosecution by Lilly’s specification and narrowing
amendment from the term “antifolates” to “pemetrexed
disodium”.
The liquid solution of both chemical
compounds results in pemetrexed treatment, but the
powdered solid form of the two products differ as a
result of the different salt compounds used. The patient
receives the liquid solution intravenously.
Both
products are sold in solid form. (Filing No. 74-1 at 17;
Filing No. 79 at 14.) Claim 12 of the ’209 Patent, a
dispositive issue (agreed by the parties) regarding
whether or not Hospira’s product infringes was
construed in the Dr. Reddy’s Case by this Court. (Filing
No. 79-3 at 6.) Claim 12 reads as follows:
12. An improved method for administering
pemetrexed disodium to a patient in need of
chemotherapeutic treatment, wherein the
improvement comprises:
a) administration of between about 350 μg
and about 1000 μg of folic acid prior to the
first administration of pemetrexed disodium;
b) administration of about 500 μg to about
1500 μg of vitamin B12, prior to the first
administration of pemetrexed disodium; and
c) administration of pemetrexed disodium.

36a
(Filing No. 1-1 at 9).
The Court construed
administration of pemetrexed disodium to refer to a
liquid administration of pemetrexed disodium. (No.
1:16-308-TWP-MPB, ECF 199 at 9.) In the claim
construction, the Court did not address the science of
what happens when pemetrexed disodium is dissolved in
aqueous solution in construing claim 12. Id. at 8-9.
Nevertheless, Hospira and Lilly agree that based on the
Court’s construction in the Dr. Reddy’s Case, that claim
12 would necessarily encompass any solution containing
pemetrexed and sodium ions because it is undisputed
that when pemetrexed disodium is dissolved in solution,
pemetrexed disodium would not exist as an ionically
bonded compound. (Filing No. 79 at 9; Filing No. 79-3 at
8). Rather the liquid solution contains pemetrexed and
disodium (or tromethamine) ions disassociated from one
another.5 Id. Thus, the solution that is administered to
the patient would not contain pemetrexed disodium as
an ionically bonded salt, and instead would contain
disassociated pemetrexed and sodium ions in solution.
The Court directs the parties to the Dr. Reddy’s Case
for the analysis of the claim construction ruling, which
binds the identical claim at issue in this case.
II.

LEGAL STANDARD

The purpose of summary judgment is to “pierce the
pleadings and to assess the proof in order to see whether
there is a genuine need for trial.” Matsushita Electric
Industrial Co. v. Zenith Radio Corp., 475 U.S. 574, 587
5

Hospira does not agree with this Court’s claim construction ruling,
however it concedes that under this construction its product would
infringe. (Filing No 79-3 at 7-8.)

37a
(1986). Federal Rule of Civil Procedure 56 provides that
summary judgment is appropriate if “the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and that
the moving party is entitled to a judgment as a matter of
law.” Hemsworth v. Quotesmith.Com, Inc., 476 F.3d
487, 489-90 (7th Cir. 2007). In ruling on a motion for
summary judgment, the court reviews “the record in the
light most favorable to the nonmoving party and draw[s]
all reasonable inferences in that party’s favor.” Zerante
v. DeLuca, 555 F.3d 582, 584 (7th Cir. 2009) (citation
omitted). However, “[a] party who bears the burden of
proof on a particular issue may not rest on its pleadings,
but must affirmatively demonstrate, by specific factual
allegations, that there is a genuine issue of material fact
that requires trial.” Hemsworth, 476 F.3d at 490
(citation omitted). “In much the same way that a court
is not required to scour the record in search of evidence
to defeat a motion for summary judgment, nor is it
permitted to conduct a paper trial on the merits of a
claim.” Ritchie v. Glidden Co., 242 F.3d 713, 723 (7th Cir.
2001) (citation and internal quotations omitted). Finally,
“neither the mere existence of some alleged factual
dispute between the parties nor the existence of some
metaphysical doubt as to the material facts is sufficient
to defeat a motion for summary judgment.”
Chiaramonte v. Fashion Bed Grp., Inc., 129 F.3d 391,
395 (7th Cir. 1997) (citations and internal quotations
omitted). This notion applies equally where, as here,
opposing parties each move for summary judgment in
their favor pursuant to Rule 56. I.A.E., Inc. v. Shaver,
74 F.3d 768, 774 (7th Cir. 1996).

38a
III.

DISCUSSION

Lilly argues that Hospira’s product infringes under
two theories: literal infringement and the doctrine of
equivalents. (Filing No. 79 at 18, 23.) Hospira raises
three non-infringement defenses to Lilly’s infringement
theories. (Filing No. 74-1 at 5.) The Court will address
each argument in turn.
A.

Literal Infringement

“Literal infringement requires a patentee to prove
by a preponderance of the evidence that every limitation
of the asserted claim is literally met by the allegedly
infringing device.” Biovail Corp. Intern. v. Andrx
Pharmaceuticals, Inc., 239 F. 3d 1297, 1302 (Fed. Cir.
2001). Lilly contends that Hospira’s product will
literally infringe when it is reconstituted in saline
according to Hospira’s proposed labeling instructions.
(Filing No. 79 at 18.) It is undisputed as manufactured
pemetrexed ditromethamine is a separate, distinct
compound from the claimed pemetrexed disodium.
(Filing No. 74-1 at 24; Filing No. 79 at 18.) Thus, in solid
form Hospira’s product does not contain pemetrexed
disodium. Hospira’s product may be reconstituted and
diluted pursuant to either saline preparation or dextrose
preparation. (Filing No. 74-1 at 24.) Lilly contends that
the saline preparation will literally infringe the ’209
Patent.
Lilly has presented unrebutted expert testimony as
to the chemical makeup of Hospira’s product
reconstituted in saline solution that would be
administered to a patient. (Filing No. 78-1; Filing No.
78-2.) Additionally, Hospira concedes that under the

39a
Court’s claim construction in the Dr. Reddy’s Case, that
its product, in accordance with its proposed labeling,
literally infringes the ’209 Patent. (Filing No. 79-3 at 12.)
Saline solution contains sodium chloride, which also
dissociates (at the molecular level) completely into
sodium and chloride ions when dissolved in the solution.
(Filing no. 79-2 at 12-13.) Because it is undisputed that,
in liquid administration, pemetrexed is the active moiety
that exerts chemotherapeutic effect to the patient, in
that the pemetrexed dissociates from the ionic salt bond
it was attached to, it makes no difference whether the
ionic bond started as pemetrexed disodium or
pemetrexed ditromethamine. (Filing No. 79-2 at 13.)
With regards to the saline dilution and reconstitution,
the resulting solutions in both instances would contain
dissociated pemetrexed ions and sodium ions—that is
pemetrexed disodium. Id. at 15. It is of no moment if
the solution also contains tromethamine ions (as in
Hospira’s product), so long as the solution contains
pemetrexed and a corresponding number of sodium ions
(two per pemetrexed ion).
Id.
Accordingly,
administering Hospira’s NDA products reconstituted
and diluted in saline literally infringe the ’209 Patent.
Thus, Lilly’s Cross-Motion for Summary Judgment of
literal infringement is granted.
B.

Doctrine of Equivalents

“The doctrine of equivalents extends the right to
exclude beyond the literal scope of the claims.” Johnson
& Johnston Associates, Inc. v. R.E. Service Co., Inc., 285
F.3d 1046, 1053 (Fed. Cir. 2002). “The doctrine of
equivalents allows the patentee to claim those
insubstantial alterations that were not captured in

40a
drafting the original patent claim but which could be
created through trivial changes.” Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722,
733 (2002). The doctrine of equivalents is restricted by
the “all limitations” rule and the prosecution history
estoppel rule by limiting the range of equivalents when
claims have been narrowed. See Pozen Inc. v. Par
Pharmaceutical, Inc., 696 F.3d 1151, 1167. Hospira
argues that Lilly’s doctrine of equivalents infringement
claim is foreclosed by prosecution history estoppel and
the disclosure dedication rule. The Court will address
each of these threshold arguments in turn.
1. Prosecution History Estoppel
Hospira presents defenses similar to those of Dr.
Reddy’s in the Dr. Reddy’s Case. It is undisputed that
Lilly narrowed its broader antifolates claim to
pemetrexed disodium during prosecution to avoid
Arsenyan prior art. It is also undisputed that Hospira’s
product would fall within the scope of the original
antifolates claim. Under Festo, Lilly’s narrowing
amendment triggers a presumption of surrender that
Lilly must rebut to sustain its doctrine of equivalents
claim. Festo, 535 U.S. at 725. Festo held three
exceptions to defeat prosecution history estoppel:
The equivalent may have been unforeseeable at
the time of the application; the rationale
underlying the amendment may bear no more
than a tangential relation to the equivalent in
question; or there may be some other reason
suggesting that the patentee could not
reasonably be expected to have described the
insubstantial substitute in question. In those

41a
cases the patentee can overcome the presumption
that prosecution history estoppel bars finding an
equivalence.
Id. at 740-41. In contrast to Dr. Reddy’s argument on
prosecution history estoppel, Hospira agrees that there
are three independent ways to overcome the
presumption that prosecution history estoppel bars
Lilly’s doctrine of equivalents claim. (Filing No. 74-1 at
28.) Nevertheless, Hospira argues that Lilly cannot
meet any of the three possible grounds for rebuttal to
apply. Id. at 31. In the Dr. Reddy’s Case, the Court
found that the tangential exception applied, and the
Court will focus on that exception in the case at bar.
Hospira contends that Lilly’s amendment, made
during prosecution of the ’209 Patent, related directly to
the alleged equivalent pemetrexed ditromethamine,
rather than a tangential relationship because Lilly
emphasized repeatedly that its invention concerned
pemetrexed disodium. Id. at 33. Lilly responds that the
rationale for amending the ’209 Patent claims from
“antifolate” to “pemetrexed disodium” bore no more
than a tangential relation to the particular salt form of
pemetrexed
(disodium
as
claimed
versus
ditromethamine used by equivalent). (Filing No. 79 at
23.) Moreover, Lilly explains that a person of skill in the
art (“POSA”) would understand that the rationale for
the amendment was to distinguish pemetrexed from
other active antifolates such as methotrexate as it is
undisputed that Arsenyan nor the prosecution history
discuss different salt forms of pemetrexed. Id. at 24.
On this issue, in the Dr. Reddy’s Case, the Court
relied on Regents of University of Cal. v.

42a
Dakocytomation Cal. Inc., where the federal circuit held
that a patentee’s narrowing amendment that centered
on a method of blocking to avoid prior art that did not
involve blocking was tangential to the particular nucleic
acid used to accomplish the blocking. 517 F. 3d 1364,
1378 (Fed. Cir. 2008). The patent at issue in that case
claimed “blocking nucleic acid” which was construed by
the district court to involve human DNA, whereas the
accused product used synthetic (not human) nucleic
acids referred to as peptide nucleic acids. Id. The use of
synthetic nucleic acids to accomplish the blocking
method fell within the original broader claims, but was
subsequently removed by the amendment. In reversing
the district court’s summary judgment of noninfringement, the federal circuit held “[t]he prosecution
history therefore reveals that in narrowing the claim to
overcome the prior art rejections, the focus of the
patentees’ arguments centered on the method of
blocking—not on the particular type of nucleic acid that
could be used for blocking.” Id. Thus, the federal circuit
found the narrowing amendment was tangential.
Lilly also cites another line of cases that demonstrate
that “the tangentiality exception has routinely been
applied in cases where the issued claims have been
narrowed in a manner that excludes the accused
equivalent.” (Filing No. 79 at 26.) See Insituform
Technologies, Inc., v. CAT Contracting, Inc., 385 F.3d
1360 (Fed. Cir. 2004); Pfizer Inc., v. Teva
Pharmaceuticals U.S.A., Inc., 882 F. Supp. 2d 643 (D.
Del. 2012). Lilly’s amendment focused on distinguishing
pemetrexed (the active antifolate) as opposed to
methotrexate (a different antifolate) in that the ’209

43a
patent was drafted to protect a method of reducing
toxicity associated with the administration of
pemetrexed disodium. (Filing No. 79 at 28-29). A POSA
would regard the salt form of the antifolate
(pemetrexed) as peripheral to the amendment. Id. at 29.
Because the tangentiality exception applies, an
independent and dispositive basis under Festo, Lilly is
not estopped from pursuing infringement under the
doctrine of equivalents. The Court need not discuss
Hospira’s remaining arguments regarding the other two
Festo exceptions (the foreseeability of tromethamine or
that Lilly could have drafted the ’209 Patent to claim
pemetrexed ditromethamine).
2. Disclosure Dedication Doctrine
Similar to the Dr. Reddy’s Case, Hospira also argues
a second threshold issue in that Lilly is barred from
pursuing infringement under the doctrine of equivalents
because of the disclosure-dedication rule. However,
Hospira has invoked the doctrine on a different aspect of
the ’209 Patent’s specification than the one relied on by
Dr. Reddy’s. Specifically, Hospira contends that the
“’209 patent specification unambiguously discloses the
administration of any ‘antifolate’”6 and further, that
Lilly’s claim to pemetrexed disodium dedicated to the
public use of any antifolate other than pemetrexed
disodium, including pemetrexed ditromethamine.
(Filing No. 74-1 at 36.) Lilly responds that pemetrexed
ditromethamine was never disclosed in the specification
6

Hospira agrees that there are no fact issues to resolve regarding
its disclosure-dedication doctrine argument, and that the issue must
be resolved on summary judgment. (Filing No. 79-3 at 11-12.)

44a
of the ’209 Patent, as an alternative or otherwise, and
that Lilly prosecuted claims that encompassed
pemetrexed ditromethamine. (Filing No. 79 at 31.)
“[W]hen a patent drafter discloses but declines to
claim subject matter . . . this action dedicates that
unclaimed subject matter to the public.” Johnson, 285
F. 3d at 1054. “[T]he public notice function of patents
suggests that before unclaimed subject matter is
deemed to have been dedicated to the public, that
unclaimed subject matter must have been identified by
the patentee as an alternative to a claim limitation.”
Pfizer Inc. v. Teva Pharmaceuticals, USA, Inc., 429
F.3d 1364 (Fed. Cir. 2005). Generic references in a
written specification do not necessarily dedicate all
members of a particular genus to the public. SanDisk
Corp. v. Kingston Technology Co., Inc., 695 F.3d 1348,
1363 (Fed. Cir. 2012).
Rather, the ‘disclosure must be of such specificity
that one of ordinary skill in the art could identify
the subject matter that had been disclosed and
not claimed.’ Additionally, in Pfizer Inc. v. Teva
Pharmaceuticals, USA, Inc., 429 F.3d 1364 (Fed.
Cir. 2005), this court further clarified that ‘before
unclaimed subject matter is deemed to have been
dedicated to the public, that unclaimed subject
matter must have been identified by the patentee
as an alternative to a claim limitation.’
Id. (citations omitted). It is undisputed that pemetrexed
ditromethamine was not disclosed specifically in the ’209
Patent,
rather
Hospira’s
disclosure-dedication
argument hinges on Lilly’s disclosure of “any antifolate”.
(Filing No. 74-1 at 35.) Additionally, Lilly asserts that

45a
pemetrexed ditromethamine is not an alternative to
pemetrexed disodium, rather the two are the same
antifolates because the active moiety—pemetrexed—
targets the same relevant enzymes as defined in the ’209
Patent specification and understood by a POSA. (Filing
No. 79 at 32-33.) Because pemetrexed ditromethamine
was not disclosed and identified with specificity, the
disclosure-dedication rule does not prevent Lilly from
pursuing a doctrine of equivalents infringement theory
nor dedicated it to the public.
C.

Inducement and Contribution to Infringement

Direct infringement occurs when one party makes,
uses, offers to sell, sells, or imports each element of a
patented invention. 35 U.S.C. § 271(a). Additionally, a
party can be held liable for indirect infringement by
actively inducing or contributing to direct infringement
by others. 35 U.S.C. § 271(b), (c). “Inducement requires
that the alleged infringer knowingly induced
infringement and possessed a specific intent to
encourage another’s infringement.” AstraZeneca LP v.
Apotex, Inc., 633 F.3d 1042, 1056 (Fed. Cir. 2010).
Courts have inferred intent to induce infringement
based on the contents of labels.
Id. (holding
circumstantial evidence may suffice to prove specific
intent to induce infringement). “The pertinent question
is whether the proposed label instructs users to perform
the patented method. If so, the proposed label may
provide evidence of [] affirmative intent to induce
infringement.”
AstraZeneca, 633 F.3d at 1060.
Similarly, labels may also form the basis to infer intent
under contributory infringement when they instruct
users to perform a patented method. See Eli Lilly & Co.

46a
v. Actavis Elizabeth LLC, 435 Fed.Appx. 917, 926 (Fed.
Cir. 2011). In a Hatch-Waxman case such as this,
infringement “is focused on the product that is likely to
be sold following FDA approval,” including the relevant
knowledge of the parties at the time the product is sold.
See Abbott Laboratories v. TorPharm, Inc., 300 F.3d
1367, 1373 (Fed. Cir. 2002) (“This determination is based
on consideration of all the relevant evidence, including
the ANDA filing, other materials submitted by the
accused infringer to the FDA, and other evidence
provided by the parties.”).
Hospira concedes that its label directs the use of folic
acid and vitamin B12 as set forth in the ’209 Patent claims.
(Filing No. 79-3 at 16.) Additionally, Hospira also
concedes that should this Court find literal infringement
of “pemetrexed disodium” or finds that there is no bar to
infringement under the doctrine of equivalents, then, as
a matter of law, use (and sale) of Hospira’s NDA
products according to their labeling, would satisfy
indirect infringement under both inducement and
contributory theories. Moreover, Hospira has not
addressed indirect infringement in its summary
judgment brief. Because the Court has found Hospira’s
product literally infringes and that there is no bar to
infringement under the doctrine of equivalents,
summary judgment is granted to Lilly as to Hospira’s
inducement of and contribution to infringement of the
’209 Patent.
IV.

CONCLUSION

For the foregoing reasons, Hospira’s Motion for
Summary Judgment of Non-Infringement (Filing No.
73) is DENIED and Lilly’s Cross-Motion for Summary

47a
Judgment of Infringement pursuant to literal
infringement and doctrine of equivalents (Filing No. 78)
is GRANTED.
SO ORDERED.
Date:

6/15/2018

/s/ Tanya Walton Pratt
TANYA WALTON PRATT, JUDGE

United States District Court
Southern District of Indiana

48a
Appendix C

United States Court of Appeals
for the Federal Circuit
_______________
ELI LILLY AND COMPANY,
Plaintiff-Appellee
v.
HOSPIRA, INC.,
Defendant-Appellant
_______________
2018-2126, 2018-2127
_______________
Appeals from the United States District Court for
the Southern District of Indiana in No. 1:16-cv-03460TWP-MPB, Judge Tanya Walton Pratt.
_______________
ON PETITION FOR REHEARING EN BANC
_______________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

49a
ORDER
Appellant Hospira, Inc. filed a petition for rehearing
en banc. A response to the petition was invited by the
court and filed by Appellee Eli Lilly and Company. The
petition was first referred as a petition for rehearing to
the panel that heard the appeal, and thereafter the
petition for rehearing en banc was referred to the circuit
judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 15,
2019.

FOR THE COURT
November 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

